APPENDIX

1a
APPENDIX A
NOT RECOMMENDED FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
File Name: 20a0464n.06
Case Nos. 19-1302/1304
DEMETRIUS WILLIAM EDWARDS,
Petitioner-Appellant,
v.
SHERRY BURT, WARDEN,
Respondent-Appellee.
BRYANT LAMONT ROYSTER,
Petitioner-Appellant,
v.
KEVIN LINDSEY, WARDEN,
Respondent-Appellee.
Filed August 5, 2020
On appeal from the United States
District Court for the Eastern
District of Michigan
Before: GUY, SUTTON, and GRIFFIN, Circuit Judges.
RALPH B. GUY, JR., Circuit Judge. Following a
joint bench trial in state court, Demetrius Edwards and
Bryant Royster were convicted of murder in the shoot-

2a
ing death of Cedell Leverett as he sat in his car outside
a shopping mall in Michigan. After Edwards and
Royster exhausted their appeals in state court, they
each filed a habeas petition in federal court. Denying
their claims in separate albeit overlapping orders, the
district court granted certificates of appealability on
their common claim that the absence of defense counsel
during the trial judge’s solo visit to the crime scene was
a per se violation of the Sixth Amendment. Concluding
that the state court’s rejection of this claim was neither
contrary to nor an unreasonable application of Supreme
Court precedent, we affirm.
I.
A.
The Michigan Court of Appeals, which issued the
last reasoned state court decision on the matter, explained that, on September 24, 2010,
Edwards was free on a GPS tether to “settle
[his] affairs,” having been sentenced just the
day before for a prior armed robbery conviction. Apparently, those affairs included a trip
to the Eastland Mall with Royster and two acquaintances, Devante Smith and Jaisaun Holt.
Around 8:30 p.m., the decedent, Cedell
Leverett, was sitting in the driver’s seat of his
Mercedes parked in the valet area of Eastland
Mall. Another car was parked nearby. Deborah Gaca observed Edwards get out of the other car, and run towards the valet area in a
crouched position. Edwards was holding a gun.
Royster, who was standing outside the driver’s
side of the other car, yelled “Pop him, pop that
mother f***** good.” Edwards then fired four

3a
shots into the Mercedes at close range, killing
Leverett. Edwards ran back to the other car,
which was backing out, and fled the scene. Police … found over $3,000 in the decedent’s
pocket.
Corroborating Edwards’s and
Royster’s presence at the Eastland Mall during
this time were a surveillance video and Edwards’s tether records.
Holt confirmed in a police interview (which
he later disavowed at trial) that Edwards intended “to get [the decedent’s] glasses and he
hit him,” before Royster whisked them away in
the car. Although Holt also elaborated that
Edwards claimed to have shot the decedent after the decedent brandished a firearm, police
found no weapons in or around the Mercedes or
on the decedent’s person during their investigation immediately after the shooting. Devante claimed the others left the Eastland Mall
without him.
Deonte Smith, Devante’s brother, … stated
[in a police interview] that he saw defendants,
Holt, and his brother (Devante) at a high school
football game sometime after the shooting. At
the game, “they” told Deonte they had seen a
man walking around the Eastland Mall with a
diamond watch and $12,000 to $15,000 cash in
his pocket. Holt kept tabs on this man and reported to Edwards by phone.
Edwards
“bragged” to Deonte that he tracked the man
outside and tried to rob the man of his watch,
but because the man was reaching for something, Edwards shot him. Others at the football game told Edwards he was stupid for not
getting anything.

4a
[Edwards was arrested] a week after the
shooting [when] a security officer at the Northland Mall in Southfield saw Edwards toss a gun
under an SUV in the parking lot while fleeing a
fight. Edwards was arrested at the scene.
Royster was apparently arrested shortly
thereafter. Subsequent tests of the gun revealed that this weapon had fired the shell casings and bullet fragments found in and around
the Mercedes and inside [Leverett].
People v. Edwards, et al., Nos. 318000/318025, 2015 WL
1069275, at *1-2 (Mich. Ct. App. Mar. 10, 2015) (per curiam) (footnote omitted), lv. to appeal denied, 870
N.W.2d 67, 67 (Mich. Oct. 15, 2015) (mem.). Someone
who had been with Leverett on the day of the shooting
gave police a diamond watch and sunglasses, which
Leverett’s daughter said she had seen Leverett wearing earlier on the day he was killed. Id. at *2.
Deborah Gaca, who worked at a store in the
Eastland Mall, testified that she walked an elderly customer out of the mall entrance where she witnessed the
shooting. Shown photographs of the area, Gaca was
questioned about what she saw, where she was standing, and the lighting conditions at the time of the shooting. On the next day of trial, the judge announced that
“the attorneys would accompany [him] to the crime
scene” at lunch on the following day. Edwards, 2015
WL 1069275, at *7. When defendants’ attorneys “indicated their clients’ desire to [also] attend this viewing,
the [judge] canceled the visit unless defendants
“change[d] their mind.”” Id. (third alteration in original). That exchange occurred on the morning of July
30, 2013.

5a
The defendants apparently relented, as two days
later the judge described a trip to the crime scene that
took place without Edwards or Royster. Although the
defendants were not there, their attorneys were both
present along with the judge, the prosecutor, the eyewitness, and others. A record was made of that visit
with the concurrence of defense counsel. In particular,
Gaca indicated where she had been standing when the
shooting occurred and explained that she did not move
except to back up against the pole when she saw the
gunman running back to the getaway car. The judge
would later find that Gaca stood 50 feet away from the
shooting—not 20 feet as she had testified. But that
first crime scene visit was not the basis of the claim
here.
Instead, after the record was made of the first visit,
the trial judge disclosed in open court that he had also
made a separate nighttime visit to the crime scene by
himself.
THE COURT: Anything else? And I will
say that the night before I, myself, went out
just to look at the lighting around the place. I
went at approximately 10:00 P.M. to see what it
looked like, [what] the lighting was like at the
mall from the area where we were standing
yesterday. Anything else to put on the record
regarding that?
[Prosecutor]:
Honor.

Not regarding that, Your

THE COURT: Okay.
[Counsel for Royster]: No, Your Honor.
[Counsel for Edwards]: No.

6a
(Tr. Trans. 8/1/13, pp. 37-38.) As this exchange reflects,
defendants’ attorneys did not object to the judge’s solo
crime scene visit on any basis. Nor did defense counsel
lodge any objection after the judge rendered his oral
decision, which briefly referenced both crime scene visits and his own observation that the area “was very
well lit.” (Tr. Trans. 8/5/13, p. 59.) Even when the
judge asked counsel if there was anything else to put on
the record, both defense attorneys responded that they
had nothing to add. (Id. at 63.)1
Both Edwards and Royster were found guilty of
first−degree felony murder and sentenced to life without parole. Edwards was also convicted of two related
firearm offenses for which he received additional terms
of imprisonment. The Michigan Court of Appeals affirmed in a consolidated opinion, and the Michigan Supreme Court denied leave to appeal.
B.
On direct appeal, Edwards and Royster argued,
among other things, that the two crime scene visits violated their rights in a number of ways. The Michigan
Court of Appeals found that all claims pertaining to the
first visit had been waived because the defense attorneys were present, agreed to the questions posed to the
eyewitness, and stipulated to the admission of her responses into evidence. Id. at *7 & *12. Aside from that
waiver, the court also declared that its review of the
crime scene visits “would be for outcome determinative
1

Although it is not entirely clear which visit occurred first,
the state court identified the visit with defense counsel as the
“first visit” and the trial judge’s solo visit as the “second.” Because the sequence is immaterial to this appeal, the visits are referred to the same way here.

7a
error” because “Edwards failed to object to either visit” and, more specifically, “Royster lodged no objection
[to the second visit] on [his] novel theory (or on any
other ground).” Id. at *7 & *12 (citing People v.
Carines, 597 N.W.2d 130, 138-39 (Mich. 1999) (holding
that the plain−error rule extends to unpreserved claims
of constitutional error)).2
Having identified plain error as the standard of review, the state court proceeded to consider what rights
a criminal defendant has “[w]ith respect to the
fact−finder’s viewing of a crime scene.” Id. at *7. Specifically, the court said that, at least where there is a
jury, “the viewing constitutes a critical stage of a criminal proceeding which a criminal defendant has the
right to attend with the assistance of counsel.” Id. (citing People v. Kurylczyk, 505 N.W.2d 528, 531 (Mich.
1993) (discussing Sixth Amendment right to have counsel at photographic lineup), and People v. Kent, 404
N.W.2d 668, 674 (Mich. App. 1987) (identifying a defendant’s statutory right to be present during a jury
view of the crime scene as recognized in People v. Mallory, 365 N.W.2d 673, 68083 (Mich. 1984))). The state
court then assumed that the same would be true when
the judge in a bench trial views “a crime scene in the
absence of [a] defendant or his counsel.” Id. (citing
United States v. Walls, 443 F.2d 1220, 1222-23 (6th Cir.
2

Petitioners insist on appeal that defense counsel did, in fact,
lodge an objection that made repeated objections unnecessary.
Not only was that argument newly raised in reply, but it is also
inconsistent with the undisputed record. Defense counsels’ initial
objection to conducting the first crime scene visit with counsel but
without the defendants simply could not substitute for an objection
when the trial judge disclosed that he had made an unconsented to
solo visit to the crime scene without the presence of the defendants or their counsel.

8a
1971), and Payne v. United States, 697 A.2d 1229, 123435 (D.C. 1997)). Lastly, the court added that Confrontation Clause protections are neither absolute nor as
broad in scope as the right to be present at trial. Id.
Turning to Edwards’s claims, the state court found
no error requiring reversal. For the first visit, any error “certainly was not outcome determinative in light of
the overwhelming evidence against Edwards.” Id. at
*8. As to the second visit, the state court concluded:
Likewise, even if the court’s second viewing were improper, it did not violate Edwards’s
substantial rights. The court indicated that its
only purpose was to confirm the lighting of the
parking lot. That fact was of little consequence
in light of the other incriminating evidence, especially the surveillance video, tether, and forensic evidence. Again, Edwards was not prejudiced, and, not surprisingly, he makes no claim
that he was actually innocent or that this fundamentally affected the proceedings in an adverse way.
Id. This plain error review would seem to encompass
all the claims made with respect to the judge’s solo visit
to the crime scene—including the absence−of−counsel
claim. Yet, in the next paragraph, the state court separately rejected the argument that the absence of counsel was structural error requiring automatic reversal
under United States v. Cronic, 466 U.S. 648, 659 (1984).
Id.
That detour, although brief, expressed agreement
with the post−Cronic decisions of “every federal circuit
court of appeals” that have held “an absence of counsel
at a critical stage may, under some circumstances, be
reviewed for harmless error.” Edwards, 2015 WL

9a
1069275, at *8 (quoting People v. Murphy, 750 N.W.2d
582, 586 (Mich. 2008) (Markman, J., concurring separately) (noting citation to, among others, Satterwhite v.
Texas, 486 U.S. 249 (1988), Ellis v. United States, 313
F.3d 636, 643 (1st Cir. 2002), and United States v. Lampton, 158 F.3d 251, 255 (5th Cir. 1998)). Without further
analysis, the Michigan Court of Appeals concluded that
the “facts fall squarely in line with this authority and we
see no compelling reason to deviate today.” Id. As a result, reversal was “not warranted.” Id.
Later in the opinion, Royster’s parallel absence−of−counsel claim was also rejected. “Like Edwards, Royster also challenges the trial [judge’s] second viewing of the crime scene, with the added wrinkle
of an alleged Confrontation Clause violation.” Id. at
*12. Because Royster lodged no objection below, the
Michigan Court of Appeals said it was “looking for outcome determinative error that adversely affected the
proceedings or resulted in the conviction of an innocent
defendant.” Id. (citing Carines, 597 N.W.2d at 143).
Referring back to its earlier discussion of a criminal defendant’s rights, the court agreed that the judge’s “second viewing of the crime scene was not only erroneous,
but imprudent.” Id. Assuming error, the state court
found that Royster could not “get around the mountain
of incriminating evidence against him” and added that,
“besides our prior analysis,” Royster’s “vulgar encouragement to Edwards” “eradicates any pretense of actual innocence especially considering that the trial court’s
second visit was to view the lighting in the parking lot.”
Id. Finally, in discussing Royster’s “near carbon−copy
subset of the issues his codefendant present[ed] on appeal,” the state court again applied plain error review.
Addressing the two crime scene visits, the court stated
that, “as we have repeatedly concluded, the evidence of

10a
Royster’s guilt absent these visits was clear and he is
not actually innocent.” Id.
The district court found that procedural default
barred review of petitioners’ claim that the absence of
counsel during the second crime scene visit constituted
a per se violation of the Sixth Amendment. We review
the district court’s legal conclusions de novo and any
findings of fact for clear error. See Robinson v. Howes,
663 F.3d 819, 825 (6th Cir. 2011).
II.
A claim that was procedurally defaulted in state
court cannot be reviewed on the merits unless the default is excused by showing either cause for the default
and actual prejudice from the constitutional violation,
or that failure to consider the claim will result in a fundamental miscarriage of justice. Coleman v. Thompson, 501 U.S. 722, 750 (1991). Procedural default occurs
when: “(1) the petitioner failed to comply with a state
procedural rule that is applicable to the petitioner’s
claim; (2) the state courts actually enforced the procedural rule in the petitioner’s case; and (3) the procedural forfeiture is an ‘adequate and independent’ state
ground foreclosing review of a federal constitutional
claim.” Willis v. Smith, 351 F.3d 741, 744 (6th Cir.
2003) (citation omitted).
The district court found procedural default based
on failure to comply with Michigan’s contemporaneous
objection rule, which we have recognized as both “a
well−established and normally enforced procedural
rule.” Taylor v. McKee, 649 F.3d 446, 451 (6th Cir.
2011). At the outset, petitioners insist that their
Cronic claim could not be defaulted in this way because
“a per se violation of a defendant’s right to effective as-

11a
sistance of counsel does not require the defendant to
preserve the error below.” Hunt v. Mitchell, 261 F.3d
575, 582 (6th Cir. 2001) (citing Powell v. Alabama, 287
U.S. 45, 57-58 (1932)). But petitioners misread Hunt,
which did not involve procedural default. In fact, this
court rejected the very same argument in Carruthers v.
Mays, 889 F.3d 273, 289 (6th Cir. 2018). There, Carruthers argued “that a claim of total deprivation of
counsel at a critical stage in the criminal proceedings
cannot be defaulted because it alleges structural constitutional error.” Id. As we explained, however,
“[f]orfeiture and procedural default are distinct concepts,” so “proclaiming that a right may not be forfeited
or waived does not necessarily mean the right may not
be procedurally defaulted.” Id. (citing Hodges v. Colson, 727 F.3d 517, 540 (6th Cir. 2013)).
Under Michigan law, the failure to object limits an
appellate court to Michigan’s version of plain error review. Carines, 597 N.W.2d at 138-39; see also People v.
Vaughn, 821 N.W.2d 288, 303-04 (Mich. 2012). Enforcement of a state court’s contemporaneous objection rule is
“an adequate and independent state ground barring federal habeas review,” and a state court’s plain error review does not revive a procedurally defaulted claim.
Awkal v. Mitchell, 613 F.3d 629, 64849 (6th Cir. 2010) (en
banc) (citation omitted); see also Wogenstahl v. Mitchell,
668 F.3d 307, 337 (6th Cir. 2012). But for procedural default to bar habeas review, the state court must have
“clearly and expressly” relied on the procedural bar in
rejecting the claim. See Smith v. Cook, 956 F.3d 377, 385
(6th Cir. 2020) (quoting Coleman, 501 U.S. at 734). We
cannot say that the state court did so here.
Certainly, the state court found that defense counsel failed to object to the second crime scene view on
any of the grounds raised on appeal. Broadly invoking

12a
the contemporaneous objection rule, the state court
lumped all the claims concerning the crime scene visits
together and found that neither Edwards nor Royster
had demonstrated “outcome determinative error.”
That reliance on the procedural bar would seem to encompass the absence of counsel at the second crime
scene visit—except that the court proceeded to specifically reject the claim that the denial of counsel was
structural error requiring automatic reversal under
Cronic. What to make of this detour is not clear.
Was it meant to be part of the plain error review?
It was not framed as a prong of Michigan’s plain error
review. Nor was it cast as an alternative holding, as
the state court had done with respect to the first crime
scene visit. Instead, the court addressed the claim of
structural error under Cronic, but concluded that the
absence of counsel in this case was subject to harmless
error review. Edwards, 2015 WL 1069275, at *8. This
explicit rejection of presumed prejudice under Cronic
and application of harmless error review—standing
apart from and untethered to the state’s procedural
bar—leaves us unable to say on which ground or
grounds the state court relied in rejecting the claim of a
per se violation of the Sixth Amendment. Because the
last reasoned state court decision did not appear to
clearly and expressly rely on the state procedural rule,
habeas review is not barred. Smith, 956 F.3d at 385;
see also Clinkscale v. Carter, 375 F.3d 430, 441-42 (6th
Cir. 2004).3

3

Even if this was not the case, we would not be required to
address procedural default “before deciding against the petitioner
on the merits.” Bales v. Bell, 788 F.3d 568, 573 (6th Cir. 2015)
(quoting Hudson v. Jones, 351 F.3d 212, 215 (6th Cir. 2003)).

13a
III.
The Antiterrorism and Effective Death Penalty
Act of 1996 (AEDPA) governs the scope of our review
only if the claim has been “adjudicated on the merits in
State court.” Johnson v. Williams, 568 U.S. 289, 292
(2013) (quoting 28 U.S.C. § 2254(d)). We presume that
a claim was adjudicated on the merits when the state
court denies relief on a properly presented federal
claim. See Harrington v. Richter, 562 U.S. 86, 99 (2011).
That presumption is a strong one that may be rebutted
only in limited circumstances, such as “when there is
reason to think some other explanation for the state
court’s decision is more likely.” Id. at 99-100. For instance, a petitioner may rebut the presumption “[w]hen
the evidence leads very clearly to the conclusion that a
federal claim was inadvertently overlooked in state
court.” Johnson, 568 U.S. at 303.
Royster contends that his Cronic claim was “inadvertently overlooked” since it was not specifically mentioned in the portion of the state court decision addressing his arguments on appeal. But “the presumption
prevails even when the state court’s opinion wholly
omits discussion of the federal claim.” Smith, 956 F.3d
at 386 (citing Johnson, 568 U.S. at 304). Nor is this
case like Brown v. Romanowski, where the presumption was rebutted by evidence that the state court addressed every claim made in the original
post−conviction motion but did not address any of the
claims raised in the amended petition. 845 F.3d 703,
711-12 (6th Cir. 2017). Here, the state court recognized
that Royster was making the same claims as Edwards
with respect to the second crime scene visit. And, the
fact that the state court referred back to its earlier
analysis undercuts the conclusion that the absence−of−counsel claim was inadvertently overlooked.

14a
Seeking to avoid AEDPA deference, both petitioners argue that their Cronic claim was not adjudicated
on the merits because the claim was purportedly reviewed for plain error. This court “has not been a
paragon of clarity about whether a state court’s
plain−error ruling amounts to a ruling on the merits
under AEDPA.” Stewart v. Trierweiler, 867 F.3d 633,
638 (6th Cir. 2017). But, as we explained in Stewart,
AEDPA governs review of “a state court’s plain−error
analysis if it ‘conducts any reasoned elaboration of an
issue under federal law.’” Id. (quoting Fleming v. Metrish, 556 F.3d 520, 531 (6th Cir. 2009)). Petitioners
point to several pre−Fleming decisions as controlling,
but as Fleming explained and Stewart reiterated, those
earlier decisions “stand only for the proposition that a
state court’s plain−error analysis cannot resurrect an
otherwise defaulted claim.” Id. To the extent that the
state court may have applied plain error review to petitioners’ Cronic claim, that would not have necessarily
precluded it from being adjudicated on the merits. See
Phillips v. Hoffner, 755 F. App’x 481, 498-99 (6th Cir.
2018) (Kethledge, J., concurring in judgment) (explaining that Stewart “resolves the ambiguity”).
Finally, the presumption prevails even when the
state court imperfectly analyzes a petitioner’s federal
claim. See Smith, 956 F.3d at 386. Here, the state
court described a jury’s view of a crime scene as a critical stage of the proceeding to which a criminal defendant has a “right to attend with the assistance of counsel.” Edwards, 2015 WL 1069275, at *7. In support,
the court’s citation coupled cases recognizing a defendant’s statutory right to be present under Michigan law
and describing generally the Sixth Amendment right to
counsel at a critical stage of the criminal proceeding.
Id. Notwithstanding the state court’s purported appli-

15a
cation of plain error review, the fact remains that the
decision specifically rejected the claim that the absence
of counsel required automatic reversal under Cronic.
Id. at *8. And, any doubt that the state court was addressing the core of the claim under federal law is dispelled by its endorsement of the view that, as “every
federal circuit court of appeals has stated, post−Cronic,
[] an absence of counsel at a critical stage may, under
some circumstances, be reviewed for harmless error.”
Id. (citations omitted). We consider the state court’s
decision rejecting the claim of structural error under
Cronic to be a merits adjudication for purposes of
AEDPA.
IV.
Under AEDPA, federal habeas relief may not be
granted unless the state court’s decision (1) “was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the
Supreme Court,” or (2) “was based on an unreasonable
determination of the facts.” 28 U.S.C. § 2254(d). Petitioners did not argue that the decision was factually erroneous, so our task is to measure the state court’s decision against the Supreme Court’s holdings at the time
of that decision. Lockyer v. Andrade, 538 U.S. 63, 71-72
(2003).
A.
“[T]he Sixth Amendment safeguards to an accused
who faces incarceration the right to counsel at all critical stages of the criminal process,” as well as the right
to proceed without counsel when done so voluntarily
and intelligently. Marshall v. Rodgers, 569 U.S. 58, 62
(2013) (per curiam) (citation omitted); see also United
States v. Gouveia, 467 U.S. 180, 188 (1984) (holding

16a
“right to counsel does not attach until the initiation of
adversary judicial proceedings”). A claim of ineffective
assistance of counsel requires a showing of both deficient performance and resulting prejudice under
Strickland, and even Cronic found that it was error to
have reversed the defendant’s conviction without
demonstrating prejudice under Strickland. See Bell v.
Cone, 535 U.S. 685, 695-96 (2002) (discussing Strickland
v. Washington, 466 U.S. 668 (1984), and United States v.
Cronic, 466 U.S. 648, 659 (1984)). In Cronic, however,
the Supreme Court also identified three circumstances
in which the denial of counsel would be “so likely to
prejudice the accused that the cost of litigating their
effect in a particular case is unjustified.” Id. at 695
(quoting Cronic, 466 U.S. at 658-59). This Cronic structural−error exception is “narrow,” Florida v. Nixon,
543 U.S. 175, 190 (2004), as “most constitutional errors
can be harmless,” Arizona v. Fulminante, 499 U.S. 279,
306 (1991).
Petitioners invoked the first of the Cronic circumstances: namely, “when there is a ‘complete denial of
counsel’ at, or counsel is ‘totally absent’ from, a ‘critical
stage of the proceedings.’” Clark v. Lindsey, 936 F.3d
467, 470 (6th Cir. 2019) (quoting Cronic, 466 U.S. at
658-59 & n. 25). The denial of counsel must occur during a “critical stage,” which is a term the Court has
used “to denote a step of a criminal proceeding, such as
arraignment, that held significant consequences for the
accused.” Bell, 535 U.S. at 696 (citing Hamilton v. Alabama, 368 U.S. 52 (1961) (no counsel present at arraignment), and White v. Maryland, 373 U.S. 59 (1963)
(per curiam) (no counsel present at entry of plea)). Also, to warrant a presumption of prejudice, there must
be a “complete” denial of counsel. Cronic, 466 U.S. at
659; see also Penson v. Ohio, 488 U.S. 75, 88 (1988)

17a
(withdrawal of counsel on appeal). Although Cronic’s
rule for presuming prejudice is settled, the precise contours of when it applies are not. See, e.g., Woods v.
Donald, 575 U.S. 312, 317-18 (2015) (per curiam), rev’g
Donald v. Rapelje, 580 F. App’x 277 (6th Cir. 2014).4
B.
A state court’s decision is contrary to clearly established federal law when it “applies a rule that contradicts” or “confronts a set of facts that are materially
indistinguishable from [the Supreme Court’s] precedent” but reaches a different result. Williams v. Taylor, 529 U.S. 362, 405-06 (2000). The Supreme Court
has warned that this standard cannot be met by framing the issue at too high a level of generality. See
Woods, 575 U.S. at 317-18 (citing Lopez v. Smith, 574
U.S. 1, 5-6 (2014) (per curiam)).
There is no dispute that the Supreme Court has
never held that the absence of counsel during a crime
scene view by the fact−finder—whether a judge or jury—constitutes a complete denial of counsel at a critical
stage of the criminal proceeding for which prejudice
must be presumed. Because no Supreme Court decision has confronted that specific question, the state
court’s rejection of the claim of Cronic error could not
be contrary to any holding of the Supreme Court. That
is true as to both the question of whether the crime
scene viewing was a “critical stage” of the proceedings
4

The other two circumstances in which prejudice need not be
shown are: when counsel fails to subject the case to meaningful
adversarial testing; and when competent counsel would very likely
be unable to render effective assistance under the circumstances.
See Bell, 535 U.S. at 696 (citing and quoting Cronic, 466 U.S. at
659-62). Neither situation was at issue here.

18a
and the contention that the denial of counsel constitutes
structural error under Cronic. See id. at 317 (explaining that similarity to other trial events that have been
held to be a “critical stage” does not make a state court
decision “contrary to” clearly established Supreme
Court precedent); Glebe v. Frost, 574 U.S. 21, 23-24
(2014) (per curiam) (holding that even if limits to closing argument violated the right to counsel, “it was not
clearly established that [the] mistake ranked as structural error”).
C.
A state court unreasonably applies clearly established Supreme Court precedent if it correctly identifies the legal rule but unreasonably applies it to the
facts of the petitioner’s case. Williams, 529 U.S. at 407.
This requires that the decision be “objectively unreasonable, not merely wrong,” and “even ‘clear error’ will
not suffice.” White v. Woodall, 572 U.S. 415, 419 (2014)
(quoting Lockyer, 538 U.S. at 75-76). A state court’s
decision is objectively unreasonable only if it is “so lacking in justification that there was an error well understood and comprehended in existing law beyond any
possibility for fairminded disagreement.” Harrington,
562 U.S. at 103. This deference is particularly warranted when, as here, the Supreme Court’s decisions “give
no clear answer to the question presented, let alone one
in [petitioner’s] favor.” Wright v. Van Patten, 552 U.S.
120, 126 (2008) (per curiam). We conclude that petitioners’ claim of Cronic error cannot clear this hurdle.
But first, a few of petitioners’ arguments need addressing.

19a
1.
To start, we are not persuaded that respondents
confessed structural error under Cronic in their state
court pleadings.
Although one brief said “[t]his
crime−scene visit was extremely important to the defense,” that discussion related specifically to the first
crime scene visit where Gaca was questioned. (Edwards, Page ID # 1601.) In another brief, the State
conceded that “the visit made to the scene by the judge
at night … was error” because the trial judge did so
without the knowledge or consent of counsel. (Royster,
Page ID # 1342.) But nothing about either concession
was an admission of structural error. The state court
found, or at least assumed, that the judge’s solo visit to
the crime scene was erroneous and imprudent—as
would we. Indeed, we have held in a direct appeal that
it was reversible error for a trial judge to have denied
the defendant and his attorney the opportunity to attend a viewing of the crime scene. See United States v.
Walls, 443 F.2d 1220, 1222-23 (6th Cir. 1971). Importantly, however, Walls explained that the reversal
was based on this court’s supervisory authority, and
expressly declined to decide whether it would be “error
of Constitutional dimensions” to conduct the view without the defendant or his attorney. Id. at 1223 n.3.
Nor is this court bound by the state court’s finding
that the judge’s crime scene visit was “a critical stage
of a criminal proceeding which a criminal defendant has
the right to attend with the assistance of counsel.”
Edwards, 2015 WL 1069275, at *7 (citations omitted).
Petitioners argue that it is binding because “a state
court’s interpretation of state law, including one announced on direct appeal of the challenged conviction,
binds a federal court sitting in habeas corpus.” Bradshaw v. Richey, 546 U.S. 74, 76 (2005) (per curiam) (em-

20a
phasis added). But the critical question—whether the
absence of counsel at the crime scene visit constituted a
per se violation of the Sixth Amendment under
Cronic—is not a matter of state law. What would be
binding is the state court’s conclusion that Michigan’s
statutory right to be present at trial extends to a factfinder’s viewing of a crime scene because it is part of
the trial. Because we assume that Michigan would consider the judge’s crime scene view to be part of the trial, we also assume that petitioners had a Sixth
Amendment right to the assistance of counsel at such a
viewing.
That being the case, petitioners understandably rely on this court’s statement in Green v. Arn that “[i]t is
difficult to perceive a more critical stage of trial than
the taking of evidence on the defendant’s guilt.” 809
F.2d 1257, 1263 (6th Cir. 1987), vacated on other
grounds and reinstated, 839 F.2d 300 (6th Cir. 1988).
Although prejudice was presumed in Green, a close
reading reveals that it mattered to the decision that defense counsel was absent from the trial for a “critical”
part of an afternoon during which a key government
witness was cross−examined by the codefendant’s
counsel. Id. at 1260-61. We also acknowledged that
some absences of defense counsel during trial may have
no constitutional significance, id. at 1261, and that “a
harmless error analysis is appropriate in some instances,” id. at 1263. Ultimately, even if we could be convinced that the judge’s second viewing of the crime
scene was comparable to the taking of evidence, Green
still would not be controlling.
Not only did Green pre−date AEDPA, but circuit
precedent may not be used “to refine or sharpen a general principle of Supreme Court jurisprudence into a
specific legal rule that [the Supreme Court] has not an-

21a
nounced.” Marshall, 569 U.S. at 64; see also Glebe, 574
U.S. at 24 (reiterating that “circuit precedent does not
constitute ‘clearly established Federal law, as determined by the Supreme Court’”) (citation omitted). To
collapse the distinction between an unreasonable application and what we might believe to be an incorrect or
erroneous application of Supreme Court precedent
“would defeat the substantial deference that AEDPA
requires.” Nevada v. Jackson, 569 U.S. 505, 512 (2013)
(per curiam). This brings us back to the unreasonable
application prong of § 2254(d)(1).
2.
The Michigan Court of Appeals rejected petitioners’ claim that the judge’s second crime scene viewing
was structural error under Cronic, concluding that “an
absence of counsel at a critical stage may, under some
circumstances, be reviewed for harmless error.” Edwards, 2015 WL 1069275, at *8 (quoting Murphy, 750
N.W.2d at 586-87 (Markman, J., concurring) (collecting
cases)). Petitioners contend that the application of
harmless error review was objectively unreasonable
because the absence of counsel at every critical stage
requires automatic reversal under Cronic. But that is
not necessarily the case—it depends on what the state
court meant by “critical stage.”
As two of the circuit court decisions cited in Murphy explain, the absence of counsel at a critical stage of
the proceeding may violate the Sixth Amendment
without warranting a presumption of prejudice under
Cronic. See Ditch v. Grace, 479 F.3d 249, 255 (3d Cir.
2007) (“Under an expansive reading of Cronic, a denial
of counsel at any critical stage … would warrant a presumption of prejudice. However, we conclude that
Cronic should be read in a more limited fashion.”);

22a
United States v. Owen, 407 F.3d 222, 228 (4th Cir. 2005)
(rejecting argument that “denial of counsel at any ‘critical stage’ of the trial process requires automatic reversal”).
The Supreme Court has sometimes used the phrase
“critical stage” broadly to refer to proceedings where a
right to counsel attaches but the denial of counsel is
nonetheless subject to harmless error analysis (such as
in Coleman v. Alabama, 399 U.S. 1 (1970), and United
States v. Wade, 388 U.S. 218 (1967)). See Owen, 407
F.3d at 227-28. However, Cronic relied on earlier Supreme Court decisions that used the phrase “critical
stage” more narrowly to refer to proceedings for which
there is a right to counsel and “at which [the] denial of
counsel necessarily undermines the reliability of the
entire criminal proceeding” (such as in Hamilton and
White). Id. at 228. Recognizing this distinction, Owen
held that its assumption that the “federal arraignment
was a ‘critical stage’ within the meaning of Wade” did
not commit the court to the conclusion that the denial of
counsel required automatic reversal under Cronic. Id.
The same would be true for the state court here.
Although the Supreme Court has not commented
on this reading of its critical−stage jurisprudence, it is
consistent with its descriptions of Cronic’s rule of presumed prejudice. In Roe, the Court described Cronic
as recognizing structural error “when the violation of
the right to counsel rendered the proceeding presumptively unreliable or entirely nonexistent.” Roe v. Flores−Ortega, 528 U.S. 470, 484 (2000). And in Woods, the
Court reiterated that “Cronic applies in ‘circumstances
that are so likely to prejudice the accused that the cost
of litigating their effect in a particular case is unjustified.’” Woods, 575 U.S. at 318 (quoting Cronic, 466 U.S.
at 658). In other words, unless the state court used the

23a
phrase “critical stage” as a short−hand for Cronic error, it would not have been objectively unreasonable to
also conclude that the petitioners’ denial−of−counsel
claim could be reviewed for harmless error.
Countering in reply, petitioners point to the statement by another circuit court that it would be “contrary to” Cronic if the state court found a “critical stage”
but nonetheless conducted harmless error review. See
Musladin v. Lamarque, 555 F.3d 830, 838 n.6 (9th Cir.
2009). That decision does not help petitioners for several reasons. Most importantly, it is evident from the
court’s analysis that its conclusion was based on its use
of the phrase “critical stage” to mean Cronic error for
which prejudice must be presumed. Id. at 838-40. Also,
because the state court provided no reasons for rejecting the claim, it was assumed that “the state court
found that the stage at issue [] was not a ‘critical stage’
such that Cronic require[d] automatic reversal.” Id. at
838 n.6. Ultimately, the court in Musladin reviewed
the denial of counsel claim for harmless error after determining that “the state court’s decision not to apply
Cronic to Musladin’s case was not objectively unreasonable.” Id. at 843 (emphasis added).
Similarly, we also do not know why the Michigan
Court of Appeals rejected the claim of structural error
under Cronic. The only hint is that the state court described a crime scene viewing to be a “critical stage” at
which “a criminal defendant has the right to attend
with the assistance of counsel.” Edwards, 2015 WL
1069275, at *7. That only tells us that the state court
found a right to counsel; not that there was a Cronic
error. So, as in Musladin, AEDPA limits our inquiry
to determining whether the state court’s decision not to
apply Cronic’s rule of presumed prejudice was objectively unreasonable.

24a
Moreover, interpreting Cronic error this way also
properly situates it as a narrow exception to the Supreme Court’s broadly stated harmless error rule. See
Fulminante, 499 U.S. at 307-08 (distinguishing constitutional violations that result in structural error from
those that involve “trial error” occurring in the presentation of evidence “which may therefore be quantitatively assessed in the context of other evidence presented in order to determine whether its admission was
harmless beyond a reasonable doubt”). Speaking generally in Satterwhite, the Court explained that some
constitutional violations “by their very nature cast so
much doubt on the fairness of the trial process that, as
a matter of law, they can never be considered harmless.” Satterwhite v. Texas, 486 U.S. 249, 256 (1988)
(emphasis added). More particularly, “Sixth Amendment violations that pervade the entire proceeding fall
within this category.” Id. (citing Hamilton and White
(absence of counsel at arraignment affected entire proceeding because defenses not asserted were irretrievably lost), Holloway v. Arkansas, 435 U.S. 475 (1978)
(conflict of interest in representation throughout proceeding), and Gideon v. Wainwright, 372 U.S. 335 (1963)
(total deprivation of counsel throughout the entire proceeding)). Without citing Cronic, the Court cited the
same cases as Cronic to illustrate Sixth Amendment
errors that could never be considered harmless.
In Satterwhite, the question was whether harmless
error analysis applied to an erroneous admission of
psychiatric testimony obtained in violation of a capital
defendant’s Sixth Amendment right to consult with
counsel prior to submitting to certain psychiatric examinations. Id. at 255-56 (citing Estelle v. Smith, 451 U.S.
454, 471 (1981)). What is important for our purposes is
that the Court expressly rejected a rule of automatic

25a
reversal and, in doing so, distinguished Hamilton,
White, Holloway, and Gideon because those were “all
cases in which the deprivation of the right to counsel
affected—and contaminated—the entire criminal proceeding.” Id. at 257. Instead, harmless error analysis
applied to the Estelle claim because “the evil caused by
[the] Sixth Amendment violation [was] limited to the
erroneous admission of particular evidence at trial.” Id.
(discussing cases). The Supreme Court has not addressed how Cronic’s rule of presumed prejudice fits
with Satterwhite’s description of Sixth Amendment violations that constitute structural error. But whatever
daylight might be between them, Satterwhite confirms
that Cronic error is properly understood as a narrow
exception to the harmless error rule.
3.
As discussed, we assume that the trial judge’s solo
visit to the crime scene violated the petitioners’ Sixth
Amendment right to counsel. A per se violation of the
Sixth Amendment requiring automatic reversal under
Cronic occurs when there is a “complete denial of counsel” at, or counsel is “totally absent” from, a “critical
stage” of the criminal proceedings. Cronic, 466 U.S. at
658-59 & n.25. Lacking “a comprehensive and final
one−line definition of ‘critical stage,’” this court has
identified the common thread in the Supreme Court’s
decisions to be “whether there was a reasonable probability that [the defendant’s] case could suffer significant
consequences from his total denial of counsel at the
stage.” Van v. Jones, 475 F.3d 292, 312-13 (6th Cir.
2007).
Under AEDPA’s unreasonable application
prong, state courts have broad discretion in adjudicating Cronic claims because the precise contours of the
right remain unclear. Woods, 575 U.S. at 318.

26a
It bears repeating that petitioners were represented by counsel at trial, including during the judge’s first
visit to the crime scene when the eyewitness demonstrated where she had been standing in relation to the
shooting. It was the judge’s nighttime view of the
crime scene that occurred without the prior knowledge
or presence of defense counsel. The state court found
that the only purpose of that visit was to confirm the
lighting conditions in the parking lot. The judge’s unsupervised crime scene view was improper, but it was
not itself a “critical stage” of the proceeding where “defenses may be [] irretrievably lost, if not then and there
asserted,” Hamilton, 368 U.S. at 54, or one where
“rights are preserved or lost,” White, 373 U.S. at 60.
Nor is it akin to a complete denial of summation, see
Herring v. New York, 422 U.S. 853, 864-65 (1975), or a
total lack of counsel on appeal, see Penson, 488 U.S. at
88-89. At least it would not be an unreasonable application of Cronic for the state court to say so.
If the stage is the trial, the claim must be that the
temporary absence of counsel at the judge’s unsupervised view of the crime scene held such significant consequences for the defendants that a presumption of
prejudice was warranted. The judge’s observation—
that the area was well lit—was not evidence offered by
the government. It was also not evidence of the lighting conditions at the time of the shooting. Gaca was
shown photographs of the scene and testified about
what she saw, where she was standing, and the lighting
conditions when the shooting occurred. The denial of
counsel resulted in the fact−finder’s improper receipt of
information or evidence relevant to the assessment of
the eyewitness’s credibility, although her credibility
was also tested both in court and at the first crime scene visit. And, because the visit was disclosed at trial,

27a
defense counsel had an opportunity to dispute whether
the lighting conditions had changed. Notably, the
judge’s observation was not directly inculpatory, and
the Michigan Court of Appeals found that it was “of little consequence in light of the other incriminating evidence, especially the surveillance video, tether, and forensic evidence.” Edwards, 2015 WL 1069275, at *8.
The Michigan Court of Appeals could reasonably
have concluded that denial of counsel at the judge’s unsupervised view of the crime scene was not a “complete” denial of counsel at a critical stage of the proceeding. See, e.g., United States v. Roy, 855 F.3d 1133,
1148 (11th Cir. 2017) (en banc) (“Because the brief [seven−minute] period during which Roy’s counsel was absent [was] not itself a ‘stage of his trial,’ Roy did not
suffer ‘the complete denial of counsel’ for ‘a critical
stage of his trial.’” (quoting Cronic, 466 U.S. at 659));
Sweeney, 766 F.3d at 861 (“Sweeney’s counsel’s brief
absence [during the direct examination of a cooperating
coconspirator] was not a ‘complete’ absence because it
only lasted three minutes.”). Moreover, it would not
have been objectively unreasonable for the state court
to conclude that the absence of counsel at a fact-finder’s
second limited crime scene view would not likely render the proceedings “presumptively unreliable.” Roe,
528 U.S. at 484; see also Schmidt, 911 F.3d at 484-85
(finding a fairminded jurist could conclude that limitation on counsel’s participation during in camera questioning of defendant was not presumptively prejudicial).
When the Supreme Court’s decisions “give no clear
answer to the question presented, let alone one in [petitioners’] favor,” we cannot conclude that the state court
unreasonably applied clearly established Supreme
Court precedent. Wright, 552 U.S. at 126. Here, within

28a
the constraints of AEDPA, and mindful of the broad
discretion state courts have in adjudicating claims of
Cronic error, a fairminded jurist could conclude that a
presumption of prejudice was not warranted by the denial of counsel during the judge’s limited nighttime
view of the crime scene. See Woods, 575 U.S. at 317-18.
V.
The judgments of the district court denying habeas
relief with respect to petitioners’ claim of structural error under Cronic are AFFIRMED.

29a
APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No. 2:17-cv-10103
DEMETRIUS WILLIAM EDWARDS,
Petitioner,
v.
MARK MCCULLICK,
Respondent.
Filed July 17, 2018
Hon. George Caram Steeh
OPINION AND ORDER (1) DENYING PETITION
FOR WRIT OF HABEAS CORPUS, (2) GRANTING
A CERTIFICATE OF APPEALABILITY WITH
RESPECT TO PETITIONER’S THIRD CLAIM, AND
(3) DENYING A CERTIFICATE OF
APPEALABILITY WITH RESPECT TO
PETITIONER’S REMAINING CLAIMS
This is a habeas case filed by a Michigan prisoner
under 28 U.S.C. § 2254.1 Petitioner Demetrius William
1

Petitioner was tried with co-defendant Bryant Lamont
Royster, who was also convicted of first-degree murder. Royster
filed a petition under § 2254, raising the same claims raised by Petitioner. See Royster v. Trierweiler, Eastern District of Michigan
Case No. 2:17-cv-10101. That petition will be adjudicated in a separate opinion, though there is a substantial overlap between the
two cases.

30a
Edwards was convicted after a bench trial in the
Wayne Circuit Court of first-degree felony murder,
MICH. COMP. LAWS § 750.316. Petitioner was sentenced
to life imprisonment.
The petition raises four claims: (1) Petitioner’s
right to a public trial was violated when the courtroom
was cleared of members of the public during his preliminary examination, (2) Petitioner was denied adequate
notice of the charges because the felony information
omitted the element of malice from the felony murder
charge, (3) Petitioner’s right to be personally present,
his right to confront witnesses, and his right to counsel
were violated during two mid-trial visits to the crime
scene, and (4) Petitioner was denied the effective assistance of counsel by his attorney’s failure to investigate
prosecution witness Deonte Smith prior to trial.
The Court finds that Petitioner’s claims are without merit or barred by his state court procedural defaults. Therefore, the petition will be denied. The
Court will, however, grant a certificate of appealability
with respect to Petitioner’s third claim, but it will deny
a certificate of appealability with respect to his other
claims.
I.

BACKGROUND

The Court recites verbatim the relevant facts relied upon by the Michigan Court of Appeals, which are
presumed correct pursuant to 28 U.S.C. § 2254(e)(1).
See Wagner v. Smith, 581 F.3d 410, 413 (6th Cir. 2009):
This case is the latest and—with life sentences—now the last of these young defendants’
routine disrespect for the rule of law. The facts
of this case stretch back to the evening of September 24, 2010. On that day, Edwards was

31a
free on a GPS tether to “settle [his] affairs,”
having been sentenced just the day before for a
prior armed robbery conviction. Apparently,
those affairs included a trip to the Eastland
Mall with Royster and two acquaintances, Devante Smith and Jaisaun Holt.
Around 8:30 p.m., the decedent, Cedell
Leverett, was sitting in the driver’s seat of his
Mercedes parked in the valet area of Eastland
Mall. Another car was parked nearby. Deborah Gaca observed Edwards get out of the other car, and run towards the valet area in a
crouched position. Edwards was holding a gun.
Royster, who was standing outside the driver’s
side of the other car, yelled, “Pop him, pop that
mother f***** good.” Edwards then fired four
shots into the Mercedes at close range, killing
Leverett. Edwards ran back to the other car,
which was backing out, and fled the scene. Police subsequently arrived and found over $3,000
in the decedent’s pocket. Corroborating Edwards’s and Royster’s presence at the Eastland
Mall during this time were a surveillance video
and Edwards’s tether records.
Holt confirmed in a police interview (which
he later disavowed at trial) that Edwards intended “to get [the decedent’s] glasses and he
hit him,” before Royster whisked them away in
the car. Although Holt also elaborated that
Edwards claimed to have shot the decedent after the decedent brandished a firearm, police
found no weapons in or around the Mercedes or
on the decedent’s person during their investigation immediately after the shooting. Devante

32a
claimed the others left the Eastland Mall without him.
Deonte Smith, Devante’s brother, provided
further information regarding the shooting
during a police interview. Deonte stated that
he saw defendants, Holt, and his brother (Devante) at a high school football game sometime
after the shooting. At the game, “they” told
Deonte they had seen a man walking around
the Eastland Mall with a diamond watch and
$12,000 to $15,000 cash in his pocket. Holt kept
tabs on this man and reported to Edwards by
phone. Edwards “bragged” to Deonte that he
tracked the man outside and tried to rob the
man of his watch, but because the man was
reaching for something, Edwards shot him.
Others at the football game told Edwards he
was stupid for not getting anything.
About a week after the shooting, a security
officer at the Northland Mall in Southfield saw
Edwards toss a gun under an SUV in the parking lot while fleeing a fight. Edwards was arrested at the scene. Royster was apparently
arrested shortly thereafter. Subsequent tests
of the gun revealed that this weapon had fired
the shell casings and bullet fragments found in
and around the Mercedes and inside the decedent at the Eastland Mall one week earlier. In
addition, police interviewed another individual
who had previously accompanied the decedent
on the day of his death and whom the police
found at the scene of the Eastland Mall after
the shooting. That individual surrendered a diamond watch and sunglasses. Notably, the decedent’s daughter saw the decedent wearing a

33a
diamond watch and sunglasses earlier that
same day.
The case subsequently proceeded to trial at
the conclusion of which the court made its findings on the record. As noted, the court acquitted defendants of first-degree premeditated
murder, but found them guilty of the offenses
at issue. Defendants were sentenced, and this
appeal followed.
People v. Edwards, 2015 WL 1069275, at *1-2 (Mich. Ct.
App. March 10, 2015).
Following his conviction and sentence, Petitioner
filed an appeal of right. His appellate counsel filed an
amended brief on appeal, raising what now form his
four habeas claims among the six claims raised:
I. Defendant Edwards was deprived of his
structural right to a public trial when the district court judge expelled the members of the
public in attendance at the preliminary examination at the end of business hours and proceeded to conduct the preliminary examination
in the complete absence of the general public
and ultimately secured testimony from Deonte
Smith, this error seriously affecting the fairness, integrity, and public reputation of the judicial proceedings because the preliminary examination testimony of Deonte Smith which
was secured in violation of defendant Edwards’
Sixth Amendment right to a public trial was ultimately introduced at the trial itself and relied
upon by the trier of fact.
II. Reversal is required where the trial court
failed to comply with MCR 6.402(b) by neglect-

34a
ing “by personally addressing the defendant” to
ascertain, whether defendant Edwards had
voluntarily chosen to give up his Sixth
Amendment right to trial by jury, given the
strong presumption against waiver of fundamental constitutional rights and that waiver
cannot be presumed to be voluntarily from a silent record.
III. The felony murder conviction must be vacated where the trial court judge’s factual findings were fundamentally inconsistent with the
guilty of felony murder verdict, given that the
trial court judge acquitted defendant Edwards
of felony murder when he concluded that there
was no proof of malice and when he declared
that he did.
IV. Violation of defendant Edwards’ Sixth and
Fourteenth Amendment right to adequate notice of charge require reversal, where defendant Edwards was charged with felony murder,
but the felony information and the statute itself
omitted the essential mens rea of malice element, leaving Defendant Edwards completely
unaware of the prosecution’s duty to prove this
element and hindering his ability to prepare to
disprove it.
V. Defendant Edwards was (1) deprived of his
right to be present during all critical stages of
the proceedings where he was excluded from
the viewing of the alleged scene of the crime
over his objection, without adequate justification for his exclusion; (2) denied his right to
confrontation when one of the star witnesses
was permitted to attend the viewing of the al-

35a
leged scene of the crime and permitted to provide additional testimony in defendant Edwards’ absence; (3) deprived of his Sixth
Amendment right to counsel during a critical
stage of the proceedings when the trial court
judge who was also the trier of fact reported to
the alleged scene of the crime, for a second
time, without defendant Edwards, his attorney,
or the prosecutor and relied on evidence that
he gathered during his solo viewing to convict
defendant Edwards.
VI. Defendant Edwards was deprived of his
Sixth Amendment right to the effective assistance of counsel where trial court counsel failed
to conduct a pretrial investigatory interview of
essential prosecution witness Deonte Smith,
who was the only witness who supported that
the homicide occurred during the commission of
an attempted larceny.
Petitioner also filed a supplemental pro se brief
raising an additional five claims:
I. Mr. Edwards is entitled to a new trial because the constitutional requirement that the
felony information set forth every element of
the crime charged was abdicated where the felony murder statute does not completely define
the crime of felony murder, and the felony information in this case lacked the essential element of malice contrary to U.S. Const. Ams.
VI, XIV, resulting in a failure to charge a criminal offense, thus this portion of the information
must be quashed.
II. Mr. Edwards is entitled to a new trial because he was denied his Sixth and Fourteenth

36a
Amendment right to a public trial by the
court’s removal of the public from the preliminary examination at the end of business hours,
and proceeded with the examination to secure
the testimony of Mr. Deonte Smith, who for
some unknown reason did not want to testify in
public. Smith subsequently refused to testify
at trial on the ground of privilege and his recorded testimony was used to convict Mr. Edwards, then a new trial is required.
III. Mr. Edwards is entitled to a new trial because the trial court’s factual findings were inconsistent with the guilty of felony murder
verdict to the extent that the trial judge concluded that Appellant did not initially intend to
kill the decedent. Thus, Appellant’s felony
murder conviction must be vacated in absence
of a judicial finding of the element of malice.
IV. Mr. Edwards is entitled to a new trial because trial counsel was ineffective for failing to
object to: (a) the felony information which
charged no crime, (b) the closure of the courtroom during preliminary examination, (c) the
trial court’s failure to comply with MCR 6.402,
(d) the trial court’s second visit to the crime
scene without counsel or notice to defendant
and opportunity to be heard on any objections,
and failing to investigate contrary to U.S.
Const. Ams. VI and XIV; Const. 1963, Art. I,
sec. 20.
V. Mr. Edwards is entitled to a new trial because the register of actions show that there
was no criminal complaint filed in this case and
the filing of a recommendation for a warrant

37a
does not constitute a complaint as defined by
MCR 6.101. Thus, in absence of a filed complaint, lawful judicial authority is absent and
the proceedings are without legal force or effect.
The Michigan Court of Appeals affirmed Petitioner’s convictions in an unpublished opinion. Edwards,
2015 WL 1069275. Petitioner subsequently filed an application for leave to appeal in the Michigan Supreme
Court filed by his current counsel. The application
raised what now form his four habeas claims, as well as
additional claims not present in this action. The Michigan Supreme Court denied the application because it
was not persuaded that the questions presented should
be reviewed. People v. Edwards, 870 N.W.2d 68 (Mich.
Oct. 15, 2015)(Table).
II. STANDARD OF REVIEW
28 U.S.C. § 2254(d)(1) curtails a federal court’s review of constitutional claims raised by a state prisoner
in a habeas action if the claims were adjudicated on the
merits by the state courts. Relief is barred under this
section unless the state court adjudication was “contrary to” or resulted in an “unreasonable application of”
clearly established Supreme Court law.
“A state court’s decision is ‘contrary to’ … clearly
established law if it ‘applies a rule that contradicts the
governing law set forth in [Supreme Court cases]’ or if
it ‘confronts a set of facts that are materially indistinguishable from a decision of [the Supreme] Court and
nevertheless arrives at a result different from [this]
precedent.’” Mitchell v. Esparza, 540 U.S. 12, 15-16
(2003) (per curiam), quoting Williams v. Taylor, 529
U.S. 362, 405-06 (2000).

38a
“[T]he ‘unreasonable application’ prong of the statute
permits a federal habeas court to ‘grant the writ if the
state court identifies the correct governing legal principle from [the Supreme] Court but unreasonably applies that principle to the facts’ of petitioner’s case.”
Wiggins v. Smith, 539 U.S. 510, 520 (2003), quoting Williams, 529 U.S. at 413.
“A state court’s determination that a claim lacks
merit precludes federal habeas relief so long as ‘fairminded jurists could disagree’ on the correctness of the
state court’s decision.” Harrington v. Richter, 562 U.S.
86, 101 (2011), quoting Yarborough v. Alvarado, 541
U.S. 652, 664 (2004). “Section 2254(d) reflects the view
that habeas corpus is a guard against extreme malfunctions in the state criminal justice systems, not a substitute for ordinary error correction through appeal. ... As
a condition for obtaining habeas corpus from a federal
court, a state prisoner must show that the state court’s
ruling on the claim being presented in federal court was
so lacking in justification that there was an error well
understood and comprehended in existing law beyond
any possibility for fairminded disagreement.” Richter,
562 U.S. at 103 (internal quotation omitted).
III. ANALYSIS
A. Public Trial
Petitioner’s first claim asserts that his right to a
public trial was violated when the state district judge
cleared members of the public from the courtroom during the first day of the preliminary examination. Petitioner claims that the error was prejudicial because after the courtroom was cleared witness Deonte Smith
provided what Petitioner claims is the only evidence
that the murders were perpetrated during the course
of a robbery. Respondent asserts in part that the claim

39a
is procedurally defaulted because no contemporaneous
objection was made to the closure of the courtroom.2
The Sixth Amendment to the United States Constitution guarantees that a criminal defendant, “shall
enjoy the right to a … public trial.” U.S. Const.
Amend. VI. This right is made applicable to the States
through the Fourteenth Amendment. Presley v. Georgia, 558 U.S. 209, 212 (2010) (citing In re Oliver, 333
U.S. 257 (1948)). “The requirement of a public trial is
for the benefit of the accused; that the public may see
he is fairly dealt with and not unjustly condemned, and
that the presence of interested spectators may keep his
triers keenly alive to a sense of their responsibility and
to the importance of their functions.” Id., at 270 n.25
(quotation marks and citation omitted). “In addition to
ensuring that judge and prosecutor carry out their duties responsibly, a public trial encourages witnesses to
come forward and discourages perjury.” Waller v.
Georgia, 467 U.S. 39, 46 (1984).
The Waller Court identified four factors a court
must consider, and findings a court must make, before
excluding members of the public from the courtroom:
(i)“the party seeking to close the hearing must advance
an overriding interest that is likely to be prejudiced,”
(ii) “the closure must be no broader than necessary to
protect that interest,” (iii) “the trial court must consider reasonable alternatives to closing the proceeding,”

2

Petitioner asserts that Respondent abandoned its procedural default defense because it conflates the concept of “forfeiture”
and “waiver.” See Dkt. 8, Reply Brief, at 18-19. Petitioner’s assertion is incorrect. Respondent’s Answer clearly asserts that review of this claim is barred by Petitioner’s procedural default in
addition to being waived. See Dkt. 6, Response, at 30-31.

40a
and (iv) “it must make findings adequate to support the
closure.” Id. at 48.
Like many other constitutional rights held by the
criminally accused, however, the right to a public trial
may be forfeited or waived if not asserted. See Levine
v. United States, 362 U.S. 610, 619 (1960) (“The continuing exclusion of the public in this case is not to be
deemed contrary to the requirements of the Due Process Clause without a request having been made to the
trial judge to open the courtroom at the final stage of
the proceeding, thereby giving notice of the claim now
made and affording the judge an opportunity to avoid
reliance on it. This was not a case of the kind of secrecy
that deprived petitioner of effective legal assistance
and rendered irrelevant his failure to insist upon the
claim he now makes. Counsel was present throughout,
and it is not claimed that he was not fully aware of the
exclusion of the general public.”).
As the Sixth Circuit explained:
While we agree that the right to a public trial is
an important structural right, it is also one that
can be waived when a defendant fails to object
to the closure of the courtroom, assuming the
justification for closure is sufficient to overcome the public and media’s First Amendment
right to an open and public trial proceeding.
See Freytag v. Commissioner, 501 U.S. 868,
896 (1991) (“[T]he Sixth Amendment right to a
trial that is ‘public,’ provide[s] benefits to the
entire society more important than many structural guarantees; but if the litigant does not assert [it] in a timely fashion, he is foreclosed.”)
(collecting cases); see also Peretz v. United
States, 501 U.S. 923, 936-37 (1991) (citing Lev-

41a
ine v. United States, 362 U.S. 610, 619 (1960)).
Because [the habeas petitioner] failed to object
to the closure, his claim is procedurally defaulted unless he can show cause and prejudice for
the default. Coleman v. Thompson, 501 U.S.
722, 750 (1991).”
Johnson v. Sherry, 586 F.3d 439, 444 (6th Cir. 2009).
Here, neither counsel for Petitioner nor counsel for
his co-defendant objected to the removal of members of
the public during the preliminary examination.
The record indicates that for about a half-hour during the first day of the preliminary examination, proceedings were interrupted by repeated disturbances by
members of the public, prompting the court to remove
member of the public from the hearing. In the midst of
an otherwise unremarkable examination of a witness by
the prosecutor during the preliminary examination,
there appears an alarming entry in the record: “(At
3:54 p.m. to 3:55 p.m., riot in courtroom).” Dkt. 7-3, at
76. The next fifteen pages of the record describe the
tumult in the courtroom and the court’s efforts to retain
control over the proceedings:
• The court warns anyone that is standing that
they will be arrested. Id. at 76.
• A police officer orders an unidentified man
out of the courtroom. Id.
• The court warns the people in the courtroom
about the dangers of a mob mentality. Id. at
77.
• Two people leave the courtroom crying . Id.

42a
• A member of the public accuses one of the defendants of saying, “that’s why that motherfucker dead.” Id.
• A member of the public accuses one of the defendants of spitting on a girl in the courtroom.
Id.
• The record indicates, “(At 3:59 p.m. to 4:00
p.m., another riot in courtroom and in hallway).” Id. at 78-79.
• The court orders one side of the gallery, apparently the side there in support of the defendants, to leave. Id. at 79.
• A woman is arrested after swearing. Id.
• The court orders that both “sides” will be removed and it will “hold court in private.” Id. at
80.
• A man asks the court what happened to his
wife, saying that “her head is swelled up this
big. We’re supposed to be protected in here.”
Id.
• The court indicates that police from seven jurisdictions are present. Id.
• A police chief asks for an additional ten
minutes before removing the second half of the
gallery, apparently those present in support of
the victim. Id.
• The court indicates that it will attempt to
“clear the area so you don’t get jumped by anybody where we don’t have security cameras, or
anybody there to help you.” Id. at 81.

43a
• A police lieutenant indicates that the second
side of courtroom will not be removed because
“we assume the problem is gone.” Id.
• A few minutes later, the court reverses
course again and indicates that the second side
will, in fact, be removed “[after] it’s clear outside, these people will be released.” Id. at 82.
• The court states: “This is very, very disturbing. I have never—I’ve been here thirty-five
years, and I have never had anything close to
anything like this. Nothing close.” Id. at 83.
• The court warns defendant Edwards that if
he stands up again he will be “banished from
the rest of the proceedings.” Id.
• A witness is brought in a scout car, “[b]ut we
didn’t want to bring him through. … With everything that’s going on. … They’ll be bringing
him right through the side.” Id. at 91.
• The court removes the rest of the public at
4:29, stating: “I’m going to now empty the
courtroom. I’m advised that it should be safe
for you. The police will be out there looking to
make sure none of you are jumped, or anything.
But I can’t guarantee your safety.” Id. at 100.
• After the courtroom is emptied, the examination of Deonte Smith continues until 5:59. Id. at
181.
At no point in the proceedings did either attorney
for the defendants object to any of the actions of the
court. On the next morning of the preliminary examination the court indicated that it had entered an order
agreed upon by the parties limiting access of the public
for the remainder of the preliminary examination:

44a
The Court: I have created an Order that provides for limited seating. I asked defense counsel for the name of the witnesses that they
would like to have present, and they gave me a
list. The, and for the—not the Attorney General, the prosecuting office, for the victim’s
family. And we have, and I have entered an
Order yesterday limiting it to these people that
were agreed to ... .
*

*

*

And so we are all satisfied at this point. I
understand we’re going to place on the record
that between all the parties, we have no objections to proceeding with this reduced access to
the public. We did provide that the public
could be these witnesses, but also any other
members of the press with credentials, and of
course, what we call resources of police response.
So, Ms. Towns [the prosecutor], are we in
agreement on that?
Ms. Towns: Yes, Judge. That’s fine with the
People.
The Court: And Mr. Glanda [counsel for Edwards]?
Mr. Glanda: Yes, Judge.
The Court:
Royster]?

And Ms. Diallo [counsel for

Ms. Diallo: No objection on behalf of Mr.
Royster.
Dkt. 7-5, at 3-5.

45a
“In all cases in which a state prisoner has defaulted
his federal claims in state court pursuant to an independent and adequate state procedural rule, federal
habeas review of the claims is barred unless the prisoner can demonstrate cause for the default and actual
prejudice as a result of the alleged violation of federal
law, or demonstrate that failure to consider the claims
will result in a fundamental miscarriage of justice.”
Coleman v. Thompson, 501 U.S. 722, 750 (1991).
A four-part test is used to determine whether a
claim is procedurally defaulted: (1) there exists a state
procedural rule that is applicable to the petitioner’s
claim and the petitioner failed to comply with the rule,
(2) the state courts actually enforced the state procedural sanction, (3) the state procedural ground is an adequate and independent state ground on which the
state can rely to foreclose review of a federal constitutional claim, and (4) the petitioner has not demonstrated cause for failing to follow the procedural rule and
actual prejudice. Stone v. Moore, 644 F.3d 342, 346 (6th
Cir. 2011).
The first inquiry is whether there exists a procedural
rule applicable to Petitioner’s claim, and whether Petitioner violated it. Michigan courts “have long recognized that, in general, an issue is not properly preserved for appeal if it is not raised before the trial
court.” People v. Bauder, 712 N.W.2d 506, 510 (Mich.
Ct. App. 2005) (citing People v. Grant, 520 N.W.2d 123,
128 (Mich. 1994)). Petitioner’s counsel did not comply
with the procedural rule when he failed to object to the
state district court’s actions during the disruptions on
the first day of the preliminary examination. When the
matter was discussed the next morning, counsel agreed
to the Court’s order limiting access of the public to the
remainder of the preliminary examination, and he made

46a
no objection regarding the court’s actions of the previous day. Accordingly, Petitioner failed to comply with
Michigan’s contemporaneous objection rule, and, therefore, the first prong of the procedural default test is
met.
Next, the Michigan Court of Appeals enforced the
procedural sanction. In determining whether state
courts have relied on a procedural rule to bar review of
a claim, a court looks to the last reasoned opinion of the
state courts and presumes that higher state courts not
rendering an explained decision enforced the bar as
well. Hinkle v. Randle, 271 F.3d 239, 244 (6th Cir.
2001) (citing Ylst v. Nunnemaker, 501 U.S. 797, 803
(1991)). Furthermore, this court has recognized that
“[p]lain error analysis … is not equivalent to a review
of the merits,” and plain error review enforces rather
than waives procedural default rules. Lundgren v.
Mitchell, 440 F.3d 754, 765 (6th Cir. 2006); Hinkle, 271
F.3d at 244 (characterizing plain error review as the
enforcement of a procedural default). The Michigan
Court of Appeals, the last state court to issue a reasoned opinion reviewing Petitioner’s public trial claim,
found that it was subject to plain error review:
“[A] defendant’s right to a public trial is subject to the forfeiture rule articulated in People
v. Carines, [460 Mich. 750; 597 N.W.2d 130
(1999)] ... .” People v. Vaughn, 491 Mich. 642,
646; 821 N.W.2d 288 (2012). Thus, for [Petitioner] to prevail on this unpreserved issue, he
must show plain error affecting his substantial
rights, i.e., outcome determinative error.
Edwards, 2015 WL 1069275, *3. The Michigan Supreme Court subsequently denied leave to appeal by
unexplained order. Therefore, the state courts en-

47a
forced the contemporaneous-objection procedural sanction.
Third, the Court must determine whether the procedural bar was an “adequate and independent” state
ground foreclosing a merits review of Petitioner’s
claim. The adequate and independent state ground
doctrine “applies to bar federal habeas when a state
court declined to address a prisoner’s federal claims because the prisoner had failed to meet a state procedural
requirement.” Coleman, 501 U.S. at 729-30. “The adequacy of a state procedural bar turns on whether it is
firmly established and regularly followed; a state rule is
independent if the state court actually relies on it to
preclude a merits review.” Biros v. Bagley, 422 F.3d
379, 387 (6th Cir. 2005) (citing Abela v. Martin, 380
F.3d 915, 921 (6th Cir. 2004) (citation omitted)). The
Sixth Circuit has recognized that Michigan’s contemporaneous objection rule is regularly followed. Simpson
v. Jones, 238 F.3d 399, 409 (6th Cir. 2000) (citing Draper
v. Adams, No. 98-1616, 2000 WL 712376, at *9 (6th Cir.
2000) (unpublished table decision)).
Petitioner argues that enforcement of the contemporaneous objection rule does not provide an adequate
basis to bar review of his public trial claim because the
Supreme Court has enforced the right despite a lack of
objection at trial. See Dkt. 8, Reply Brief, at 19-22 (citing In re Oliver, 333 U.S. 257, 272 (1948); Gannet Co v.
DePasquale, 443 U.S. 368, 375 (1979); Richmond Newspapers v. Virginia, 448 U.S. 555, 560 (1980); Waller, 467
U.S. at 42 n. 2; Presley, 130 S.Ct. at 724 (“The public
has a right to be present whether or not any party has
asserted the right.”)). Most of the cases relied upon by
Petitioner, however, do not concern application of the
existent habeas corpus procedural-default doctrine to a
public trial claim. The one case that does, Waller, un-

48a
dermines Petitioner’s position. The footnote cited by
Petitioner states that four of the five habeas petitioners
had objected at trial, and that as to the petitioner that
did not object, the case was remanded to determine
whether his public trial claim was procedurally barred.
Accordingly, the Waller court recognized that a contemporaneous objection rule is an adequate ground for
defaulting a public trial claim. Moreover, the Court
notes that under binding Sixth Circuit precedent the
procedural default doctrine applies to public trial
claims. See Bickham v. Winn, 888 F.3d 248, 251 (6th
Cir. 2018); Johnson, 586 F.3d at 444; (6th Cir. 2009). Finally, the Court notes that the justification for closing
the proceeding here—rioting and ensuring the physical
safety of members of the public—was sufficient to
overcome the public and media’s First Amendment
right to an open and public proceeding. The Court cannot conceive of a more appropriate reason for closing a
proceeding.
Because Petitioner failed to comply with a state
procedural rule constituting an adequate and independent state ground for the state court’s decision, review
of his public trial claim is barred unless he can “demonstrate … that there was cause for him not to follow the
procedural rule and that he was actually prejudiced by
the alleged constitutional error.” Stone, 644 F.3d at 346
(quoting Maupin, 785 F.2d at 138).
“[C]ause for a procedural default must ordinarily
turn on whether the prisoner can show that some objective factor external to the defense impeded counsel’s
efforts to comply with the State’s procedural rule.”
Murray v. Carrier, 477 U.S. 478, 488 (1986). Petitioner’s reply brief does not attempt to assert cause to excuse his default, choosing instead to argue that Respondent waived the defense or that the defense does

49a
not apply to public trial claims. Accordingly, Petitioner
has completely failed to demonstrate cause to excuse
the procedural default of his public trial claim.
Nevertheless, it should be noted that Petitioner’s
supplemental pro se brief filed in the Michigan Court of
Appeals argued that his counsel was ineffective for failing to object to the closure of the courtroom. Ineffective assistance of counsel only suffices if the deficient
performance purporting to provide cause for the default would be sufficient to merit its own independent
constitutional claim. Edwards v. Carpenter, 529 U.S.
446, 451 (2000). In order to prevail on a claim of ineffective assistance of counsel, Petitioner “must show both
that his counsel’s performance was deficient and that
the deficient performance prejudiced the defense.”
Hodges v. Colson, 711 F.3d 589, 613 (6th Cir. 2013) (citing Strickland v. Washington, 466 U.S. 668, 687-88
(1984)). To show deficiency, Petitioner must establish
that “counsel made errors so serious that [he] was not
functioning as the ‘counsel’ guaranteed … by the Sixth
Amendment.” Strickland, 466 U.S. at 687. Petitioner
has failed to demonstrate that his counsel performed
deficiently in failing to object to the closure of the
courtroom. Specifically, nothing in the record suggests
that the court would have been inclined to keep the
courtroom open to the unruly mob present had an objection been made by counsel. Rather, it is reasonable
to conclude that had defense counsel asserted Petitioner’s right to a public proceeding and cited Waller, the
court simply would have gone over the Waller factors
and ruled that closure was nonetheless warranted.
Where, as here, a petitioner fails to show cause, the
Court need not consider whether he has established
prejudice. See Smith v. Murray, 477 U.S. 527, 533
(1986); Engle v. Isaac, 456 U.S. 107, 134 n.43 (1982).

50a
Finally, Petitioner has not established that a fundamental miscarriage of justice has occurred. The miscarriage of justice exception to the procedural default
rule requires a showing that a constitutional violation
probably resulted in the conviction of one who is actually innocent. Schlup v. Delo, 513 U.S. 298, 326-27 (1995).
“[A]ctual innocence means factual innocence, not mere
legal insufficiency.” Bousley v. United States, 523 U.S.
614, 624 (1998) (citation omitted). “To be credible, [a
claim of actual innocence] requires petitioner to support
his allegations of constitutional error with new reliable
evidence—whether it be exculpatory scientific evidence, trustworthy eyewitness accounts, or critical
physical evidence—that was not presented at trial.”
Schlup, 513 U.S. at 324. Petitioner has made no such
showing. This claim, therefore, is procedurally defaulted.
B. Notice of Charges
Petitioner’s second claim asserts that he had insufficient notice of the charges against him because the
Felony Information failed to notify him of the requirement that first-degree felony murder requires that the
accused acted with malice. Petitioner further asserts
that, contrary to the decision of the Court of Appeals
rejecting this claim, a defective charging instrument
cannot be cured by the testimony offered at a preliminary examination or by the language contained in a different count of the charging document.
As it did with Petitioner’s first claim, the Michigan
Court of Appeals found that review of this claim was
limited to “plain error” because the claim was not preserved in the trial court. Edwards, 2015 WL 1069275,
*7. Accordingly, for the same reasons outlined above,
review of Petitioner’s second claim is procedurally

51a
barred from review, and Petitioner has failed to
demonstrate cause to excuse the default.
Nevertheless, the claim is without merit. The
Sixth Amendment to the United States Constitution
provides that, “[i]n all criminal prosecutions, the accused shall enjoy the right … to be informed of the nature and cause of the accusation.” U.S. Const., Amend.
VI. The Sixth Circuit has explained this right, as applied to the States through the Fourteenth Amendment, as follows:
The due process clause of the Fourteenth
Amendment mandates that whatever charging
method the state employs must give the criminal defendant fair notice of the charges against
him to permit adequate preparation of his defense. In re Ruffalo, 390 U.S. 544 (1968); Blake
v. Morford, 563 F.2d 248 (6th Cir. 1977); Watson v. Jago, 558 F.2d 330, 338 (6th Cir. 1977).
This requires that the offense be described
with some precision and certainty so as to apprise the accused of the crime with which he
stands charged. Such definiteness and certainty are required as will enable a presumptively
innocent man to prepare for trial. Combs v.
Tennessee, 530 F.2d [695, 698 (6th Cir. 1976)].
Koontz v. Glossa, 731 F.2d 365, 369 (6th Cir. 1984).
After finding that the claim was defaulted, the
Michigan Court of Appeals rejected Edwards’ claim as
follows:
The felony information coupled with the
preliminary examination was constitutionally
sufficient to dispel the ignorance that Edwards
claims was plaguing him below. With respect

52a
to felony murder, the information alleged that
Edwards “did while in the perpetration or attempted perpetration of a larceny, murder one
[sic] Cedell Leverett; contrary to MCL
750.316(1)(b),” punishable by [l]ife without parole.” This fairly apprised Edwards of the nature of the offense as required by court rule
and statute. See MCR 6.112(D) (requiring the
information to set forth the notice required by
MCL 767.45, in addition to the substance of the
accusation and the applicable penalty, among
other things), and MCL 767.45(1)(a) (requiring
the information to contain “[t]he nature of the
offense stated in language which will fairly apprise the accused and the court of the offense
charged.”). Moreover, the facts presented at
the preliminary examination mirror those presented at trial. They showed Edwards approaching the decedent in a crouched position
and holding a gun with the intent to rob him.
“Malice may … be inferred from the use of a
deadly weapon.” Carines, 460 Mich. at 759. A
gun is a dangerous weapon. See People v. Parker, 417 Mich. 556, 565 (1983). Accordingly, the
felony information, framed with reference to
this evidence, fairly apprised Edwards of the
requisite intent of this offense.
Edward’s argument that had he known
that felony murder requires a malicious intent,
he would have testified that he lacked malice
when he shot the decedent, defies common
sense. Although the information did not expressly contain a “malice” theory in support of
the felony murder charge, the information for
the first-degree premeditated murder charge

53a
explicitly alleged that Edwards acted “deliberately, with the intent to kill … .” (Emphasis
added.) Malice includes the intent to kill.
Smith, 478 Mich. at 318-319. Even with this notice, Edwards elected not to testify.
In light of this, Edwards was fully apprised
of the nature of the charges against him and his
ability to defend against them was certainly not
prejudiced.
Edwards, 2015 WL 1069275, *8.
This decision was not unreasonable. Petitioner’s
argument hinges on the premise that it is unreasonable
to expect a lay person to understand that a charging
document that alleged the accused “did while in the
perpetration or attempted perpetration of a larceny,
murder one [sic] Cedell Leverett; contrary to MCL
750.316(1)(b),” required the prosecutor to prove that he
acted with malice. See, e.g., Dkt. 8, Petitioner’s Reply,
at 24 (“No fair-minded jurist would expect a nonlawyer criminal defendant to review a charging instrument and somehow recognize that a critical element
was amiss from one of the charged offenses, then expect the same layman criminal defendant to look for the
omitted element amongst another separate and distinct
charge and carry that element over to the defective
charge.”).
The argument completely ignores the fact that at
all times during state court proceedings Petitioner was
represented by presumptively competent counsel. The
Supreme Court has stated that “‘it may be appropriate
to presume that in most cases defense counsel routinely
explain the nature of the offense in sufficient detail to
give the accused notice of [the offense charged].” Marshall v. Lonberger, 459 U.S. 422, 436 (1983) (quoting

54a
Henderson v. Morgan, 426 U.S. 637, 647 (1976)). Here,
the requirement to prove malice to support a charge of
first-degree felony murder was established by the
Michigan Supreme Court in 1980. See People v. Aaron,
409 Mich. 672 (1980). Aside from the fact that the
charging document clearly accused Petitioner of murdering the victim during the perpetration of a larceny
(and murder requires malice), it is appropriate to presume that Petitioner’s attorneys informed him of the
nature of the felony murder charge, including the malice element that had been established in Michigan for
over thirty years. Petitioner made no allegation in the
state courts—and he makes none here—that his counsel failed to inform him of the nature of the charges
against him.
For the same reasons, Petitioner has failed to
demonstrate that he was actually prejudiced by his
counsel’s failure to object to the felony information so
as to excuse the procedural default of this claim.
Petitioner’s second claim is both procedurally
barred from review and without merit.
C. Visits to the Crime Scene
Petitioner’s third claim raises his strongest challenge to the validity of his conviction. Petitioner asserts that several of his constitutional rights were violated during two trips to the crime scene. The first trip
occurred without Petitioner being present, and the second trip occurred outside both Petitioner or his counsel’s presence. Petitioner alleges that both visits violated his Sixth Amendment right to be personally present at all critical stages of the proceedings, that the
first visit denied his Sixth Amendment right to face-toface confrontation when one of the witnesses also attended the crime scene visit, and that the second visit

55a
violated his Sixth Amendment right to counsel during a
critical stage of the proceedings.
The Michigan Court of Appeals found in part that
the claim was defaulted by Petitioner’s failure to object
to the visits:
This brings us to the argument in Edwards’s principal brief that the trial court twice
improperly viewed the scene of the crime and
denied him the right to confront Gaca when she
accompanied the court to the scene. This issue
first appears on the record during the second
day of trial when the court indicated that the
attorneys would accompany the court to the
crime scene. Apparently, this was originally
planned to occur without defendants present,
for when defendants’ attorneys subsequently
indicated their clients’ desire to attend this
viewing, the court canceled the visit unless defendants “change[d] their mind.” Subsequently, while delivering its factual findings, the trial
court noted that there “was a[n] independent
going to the scene of the crime with defense
counsel and the officer-in-charge, but we were
met with Ms. Gaca and to basically get the site
of where she was and where the cars were
[sic].” The court added that it “also went to the
mall at approximately 10:30, 10:00, 10:30 p.m. at
night to see what the night light looked like.
And as I indicated earlier, you could see very
well into the parking lot area. It was very welllit.”
As a preliminary matter, Edwards has
waived any claim concerning both the court’s
first viewing of the scene and confronting the

56a
eyewitness there. His counsel was not only
present during those events, but counsel additionally agreed on the two questions asked of
Gaca, which pertained only to her vantage
point during the shooting. Even more, Edwards’s counsel stipulated that Gaca’s testimony on this score be read into the record. See
People v. McPherson, 263 Mich. App. 124, 139
(2004) (a party waives appellate review when
the conduct of the party or his counsel
“invit[es] the error and fails to object”), citing
People v. Carter, 462 Mich. 206, 215-216 (2000);
see also People v. Riley, 465 Mich. 442, 448
(2001). Regardless, even if the issue were not
waived, our review would be for outcome determinative error since Edwards failed to object to either visit or the alleged testimony below. Carines, 460 Mich. at 764-765 (a claim of
constitutional error requires a contemporaneous objection to preserve it for appeal); see also
People v. Broadnax, 57 Mich. App. 621, 622-623
(1975) (defendant could not raise this issue for
first time on appeal where, among other things,
defense counsel participated in the judge’s
viewing of the scene and did not object).
With respect to the fact-finder’s viewing of
a crime scene, it is well established that when
the fact-finder is the jury, the viewing constitutes a critical stage of a criminal proceeding
which a criminal defendant has the right to attend with the assistance of counsel. People v.
Kurylczyk, 443 Mich. 289, 296 (1993) (opinion
by GRIFFIN, J.); People v. Kent, 157 Mich.
App. 780, 793 (1987), citing People v. Mallory,
421 Mich. 229, 244-248 (1984). However, Ed-

57a
wards has not cited—nor have we found—
Michigan authority addressing the issue of a
trial court’s viewing of a crime scene in the absence of defendant or his counsel. Several federal courts have held, however, that the same
principles apply. See, e.g., United States v.
Walls, 443 F.2d 1220, 1222-1223 (6th Cir. 1971)
(“The principles applicable to a view by a judge
sitting without a jury are not substantially different [than those applicable to a jury]”);
Payne v. United States, 697 A.2d 1229, 1235
(D.C. 1997), citing Lillie v. United States, 953
F.2d 1188, 1191 (10th Cir. 1992) (finding the
court’s viewing of the crime scene, although erroneous, was not prejudicial). Moreover, while
the Confrontation Clause entitles a criminal defendant the right to a face-to-face meeting with
witnesses appearing before the trier of fact, the
right is not absolute, People v. Staffney, 187
Mich. App. 660, 663 (1990), and is not as broad
in scope as the right to be present at trial, Mallory, 421 Mich. at 247.
Assuming the right to attend the viewing
of the scene extends to bench trials, we find no
error requiring reversal. In the first place,
Edwards’s counsel was present for the initial
viewing by the court and Gaca. Moreover,
counsel agreed to the two questions asked of
Gaca and stipulated to her testimony. Those
pertained to her location and whether she
moved during the shooting. Her testimony
that she only moved when the gunman ran towards the car, however, only damaged her
credibility and helped Edwards. On this point,
the trial court expressly found that Gaca stood

58a
50 feet from the incident, rather than the 20
feet she claimed at trial. In view of this, Edwards’s failure to raise this issue below smacks
of harboring error as an appellate parachute.
People v. Riley, 465 Mich. 442, 448 (2001). We
will not tolerate such gamesmanship. But even
if there were error, it certainly was not outcome determinative in light of the overwhelming evidence against Edwards. This included
the evidence of Edwards’s intent to rob the decedent, the forensic evidence linking Edwards’s
gun to the shooting, and the tether and surveillance video placing Edwards at the scene.
Likewise, even if the court’s second viewing were improper, it did not violate Edwards’s
substantial rights. The court indicated that its
only purpose was to confirm the lighting of the
parking lot. That fact was of little consequence
in light of the other incriminating evidence, especially the surveillance video, tether, and forensic evidence. Again, Edwards was not prejudiced, and, not surprisingly, he makes no claim
that he was actually innocent or that this fundamentally affected the proceedings in an adverse way.
Before moving on, we note that Edwards
relies on United States v. Cronic, 466 U.S. 648
(1984), among other cases, to suggest that any
error was structural and requires automatic
reversal. Edwards ignores, however, that
“every federal circuit court of appeals has stated, post-Cronic, that an absence of counsel at a
critical stage may, under some circumstances,
be reviewed for harmless error.” People v.
Murphy, 481 Mich. 919, 923 (2008) (MARK-

59a
MAN, J., concurring), citing, among others,
Satterwhite v. Texas, 486 U.S. 249 (1988), Ellis
v. United States, 313 F.3d 636, 643 (1st Cir.
2002) (absence of counsel at critical stage would
require presumption of prejudice only if “pervasive in nature, permeating the entire proceeding”), and United States v. Lampton, 158
F.3d 251, 255 (5th Cir. 1998) (applying harmless-error review when counsel was absent during adverse testimony). Our facts fall squarely
in line with this authority and we see no compelling reason to deviate today. Reversal is not
warranted.
Edwards, 2015 WL 1069275, *8-10 (footnotes omitted).
The record shows that neither Petitioner nor
Royster objected to either visit on the grounds now asserted in the habeas petition. The prospect of a visit to
the crime scene was first broached during the second
day of trial. Dkt. 7-13, at 114. The court indicated that
“[w]e had a trip planned on side bar tomorrow at lunch.
The plan is to go to the crime scene just with the attorneys.” Id. Both defense attorneys initially objected to
the visit on the grounds that their clients requested to
be present. Id. In view of the objection, the court stated, “[t]hen we’re not going … If they change their
mind, they change their mind.” Id.
It is evident from the record that the defendants
must have, in fact, changed their minds because two
days later the court indicated that the trip had taken
place. Dkt. 7-15, at 36. The court stated that it, along
with the prosecutor, both defense attorneys, police officers, and prosecution witness Deborah Gaca, went the
scene of the shooting. Id. The court further stated that
the parties had agreed to ask Gaca where she had been

60a
positioned during the shooting, and whether she moved
at any point:
[Prosecutor]: Yes, When asked where she
stood, Ms. Gaca positioned herself between the
pillars. And the Court saw where she was
standing, so I don’t need to put that on the record. When asked did you move at all while you
were watching this incident going on, she said
no, the only time she moved was when she saw
the gunman running towards the car. She then
physically backed up against the pole in front of
all of us and showed us the position where she
was after the shooting took place. Is that a
correct and fair assessment of the statements
made by Ms. Gaca?
[Counsel for Royster]: That is, your Honor.
[Counsel for Edwards]: Yes.
[Prosecutor]: And I would stipulate to those
statements. Would you stipulate to those
statements as well?
[Counsel for Royster]: Yes, that’s what she
said at the time, your Honor.
[Counsel for Edwards]: That’s correct.
Id. at 36-37.
The Court then indicated that it visited the scene
on another occasion, and it essentially asked the parties
whether they had any objection to the second visit:
The Court: Anything else? And I will say that
the night before I, myself, went out to just look
at the lighting around the place. I went at approximately 10:00 p.m. to see what it looked
like, the lighting was like at the mall from that

61a
area we were standing yesterday. Anything
else to put on the record regarding that?
[Prosecutor]: Not regarding that, your Honor.
THE COURT: Okay.
[Counsel for Royster]: No, your Honor.
[Counsel for Edwards]: No.
Id. at 37-38.
Despite the defendants’ initial demand to be personally present at any visit, the record demonstrates
that two visits took place, and when the visits where
discussed on the record, neither defendant objected on
any basis. Accordingly, when the Michigan Court of
Appeals reviewed the claims involving the visits, it
found review was limited to the plain error standard
due to the failure of the defendants to object. The
Michigan Court of Appeals stated:
[E]ven if the issue were not waived, our review
would be for outcome determinative error since
Edwards failed to object to either visit or the
alleged testimony below. Carines, 460 Mich. at
764-765 (a claim of constitutional error requires
a contemporaneous objection to preserve it for
appeal); see also People v. Broadnax, 57 Mich.
App. 621, 622-623 (1975) (defendant could not
raise this issue for first time on appeal where,
among other things, defense counsel participated in the judge’s viewing of the scene and did
not object).
Edwards, 2015 WL 1069275, *9.
Accordingly, as with Petitioner’s previous claims,
this claim is also procedurally defaulted. The decision
of the Court of Appeals indicates that it actually en-

62a
forced Michigan’s contemporaneous objection rule by
noting Petitioner’s failure to assert his arguments in
the trial court, and as discussed above, the rule is an
adequate and independent state ground foreclosing review of Petitioner’s constitutional claim.
The Court notes the importance of application of
the procedural default rule to this claim. With respect
two of Petitioner’s legal arguments, the claims might
have been resolved on the basis that there was otherwise strong evidence of Petitioner’s guilt, and the limited information gleaned at the visits was not overly
prejudicial to his defense. With respect to Petitioner’s
right to be personally present, the right “is not absolute, but exists only when his presence has a relation,
reasonably substantial, to the fullness of his opportunity to defend against the charge.” United States v.
Henderson, 626 F.3d 326, 343 (6th Cir. 2010) (quotation
marks omitted)). “In other words, the defendant’s
presence is not guaranteed when it would be useless,
but only to the extent that a fair and just hearing would
be thwarted by his absence.” Id. (quotation marks
omitted). Petitioner has not indicated how his personal
presence at either visit would have been useful and was
required for a fair and just hearing.
Similarly with respect to the Confrontation Clause
claim, any violation is subject to harmless error analysis. See Delaware v. Van Arsdall, 475 U.S. 673, 684
(1986)). And here, Petitioner has not shown how his
inability to cross-examine or confront Gaca regarding
what she saw or said on either visit “had a substantial
and injurious effect or influence in determining the [trial court’s] verdict.” Fry v. Pliler, 551 U.S. 112, 116
(2007). Indeed, as indicated below, Gaca’s estimation of
being only twenty feet from the scene of the shooting
was revised in Petitioner’s favor to about fifty feet af-

63a
ter the visit. The visit benefitted Edwards defense in
that it placed the lone eyewitness to the shooting further away than she thought.
It is reasonably debatable, however, whether the
same analysis applies to Petitioner’s right-to-counsel
claim. The Supreme Court has clearly established that
the complete denial of counsel during a critical stage of
a judicial proceeding mandates a presumption of prejudice. United States v. Cronic, 466 U.S. 648, 659 (1984).
The existence of certain structural defects in a trial,
such as the deprivation of the right to counsel, requires
automatic reversal of the conviction because it infects
the entire trial process. Brecht v. Abrahamson, 507
U.S. 619, 629-30 (1993). In Penson v. Ohio, 488 U.S. 75
(1988), the Supreme Court held that the right to counsel is “‘so basic to a fair trial that [its] infraction can
never be treated as harmless error.’” Id. at 88, quoting
Chapman v. California, 386 U.S. 18, 23 n.8 (1967). Similarly, the Sixth Circuit, citing Cronic, held that
“[h]armless error analysis is never appropriate when a
criminal defendant is denied counsel during a critical
stage of his trial, because prejudice is always presumed
in such circumstances.” Hereford v. Warren, 536 F.3d
523, 541 (6th Cir. 2008), citing Cronic, 466 U.S. at 658.
The Michigan Supreme Court considers a fact-finder’s
viewing of the crime scene to be a critical stage of the
proceeding. See, e.g., People v. Mallory, 421 Mich. 229,
247 (1984). Thus, counsel’s absence at the trial court’s
second visit arguably would have required automatic
reversal of Petitioner’s convictions had a contemporaneous objection been made, and had the trial court then
failed to correct the error.
On the other hand, Respondent asserts that the automatic-reversal rule does not apply to the unobjected
to violation here. Support exists for this assertion a

64a
well. In Satterwhite v. Texas, 486 U.S. 249, 257 (1988),
the Supreme Court held that the automatic reversal
rule for a denial of counsel during a critical stage does
not apply to all cases. The Court stated that even
where counsel is absent during a critical stage, harmless error analysis is nevertheless appropriate “where
the evil caused by a Sixth Amendment violation is limited to the erroneous admission of particular evidence
at trial.” Id. Here, not unlike Satterwhite, the absence
of counsel was limited to the admission of the trial
court’s observations regarding the lighting conditions
at the scene of the crime, an issue that did not have a
substantial or injurious impact on the result of the trial.
Furthermore, in Woods v. Donald, 135 S. Ct. 1372,
1375 (2015), the habeas petitioner claimed that he was
entitled to habeas relief without a need for demonstrating prejudice where he was denied his right to counsel
when witnesses testified at his trial regarding his codefendant’s guilt. The Supreme Court held that the
Sixth Circuit erroneously granted relief because there
was no clearly established Supreme Court law holding
that the reception of evidence regarding co-defendants
is a critical stage of the proceedings against the petitioner. Id. at 1377. The Court stated, “Cronic applies
in ‘circumstances that are so likely to prejudice the accused that the cost of litigating their effect in a particular case is unjustified.’” Id. at 1378. Here, the trial
court’s second view of the crime scene was performed
“just [to] look at the lighting around the place.” Dkt. 613, at 37-38. The visit was inconsequential enough that
neither defense counsel opted to put anything on the
record, and the trial court’s findings of fact after trial
did not rely on the lighting he observed as a reason to

65a
find Petitioner guilty of the offense.3 Under these circumstances, it would be reasonable to conclude that the
trial court’s second crime scene visit was not a critical
stage of the proceedings requiring automatic reversal
had an objection been made.
All of this is to say why the application of the contemporaneous objection rule to this claim is especially
appropriate here. If, notwithstanding Satterwhite and
Woods, the failure to have counsel present at the second visit was a structural error creating the possibility
of automatic reversal, then the error could have been
easily remedied by a timely objection after the trial
court asked the parties if they had anything they
wished to place on the record. Had an objection on the
right-to-counsel grounds been made, the trial court
could have simply disregarded any observations made
during the second visit, thereby curing any error.
Granting relief in the absence of an objection would, in
effect, create a windfall for counsel’s failure to voice an
objection when he was invited to do so.
Accordingly, review of Petitioner’s third claim is
procedurally barred by his failure to object to the visits
to the crime scene absent a showing of cause and prejudice. For the reasons stated, Petitioner’s counsel was
not ineffective for failing to object to the crime scene
visit. It appears from the record that counsel wanted
the visit to take place, and the observations made there
benefitted him by placing Gaca further away from the
scene than she estimated in her testimony.
3

In fact, Gaca testified that she was about twenty feet away
from the victim’s car at the time of the shooting, but after the
crime scene visit, the Court determined that the distance was
“more like fifty feet,” a finding that benefitted the defense. Dkt. 614. at 55.

66a
Moreover, Petitioner has failed to demonstrate that
he was actually prejudiced by his counsel’s failure to
object because the evidence presented against him at
trial was very strong. Aside from admitting to Deonte
Smith that he committed the crime, the testimony and
tether evidence that indicated he was at the mall at the
time of the crime, and the eyewitness identification testimony of Gaca—there is the very damning evidence
that the week after the murder Petitioner was seen
throwing the murder weapon under a parked car when
he fled from another mall and was then arrested at the
scene. A successful objection to the crime scene visits
would not, with reasonable probability, have resulted in
a more favorable outcome for Petitioner. Strickland,
466 U.S. at 694. As such, he cannot demonstrate cause
to excuse his procedural default.
Petitioner has failed to demonstrate entitlement to
habeas relief with respect to his third claim.
D. Ineffective Assistance of Counsel
Petitioner’s fourth claim asserts that his trial counsel failed to adequately conduct a pretrial investigation
regarding prosecution witness Deonte Smith. Petitioner asserts that neither his nor his co-defendant’s attorneys ever interviewed Smith prior to the preliminary
examination or trial. Petitioner obtained a purported
affidavit from Smith during his direct appeal in which
Smith claims that his trial testimony was false. Specifically, the affidavit asserts that Smith never heard Edwards brag about being involved in the murder or that
the murder occurred during the perpetration of a robbery. The document further claims that Smith refused
to testify at trial because he knew that it would be in
the public presence and people would know that it was
false.

67a
After reciting the controlling constitutional standard, the Michigan Court of Appeals rejected the claim
as follows:
Edwards initially argues in his principal
brief that his trial counsel was ineffective for
failing to interview Deonte before trial. See
People v. Grant, 470 Mich. 477, 493; 684 N.W.2d
686 (2004) (“[t]he failure to make an adequate
investigation is ineffective assistance of counsel
if it undermines confidence in the trial’s outcome.”). Edwards bases this assertion on Deonte’s affidavit-offered for the first time on appeal-disavowing his preliminary examination
testimony incriminating Edwards. According
to Edwards, had counsel interviewed Deonte,
he could have exposed Deonte’s lies to the
court at trial. There are at least two problems
with this argument.
First, Deonte refused to testify at trial.
Thus, Edwards’s assumption, i.e., that the trial
court would have “heard from Smith that he
was lying,” has no basis. Tellingly, Edwards offers no argument about how his counsel’s investigation would have altered Deonte’s decision not to testify. Second, even if Deonte
would have recanted at trial, this would not
erase his prior sworn testimony, which the
prosecution would no doubt have presented as
a prior inconsistent statement admissible for its
substantive value. See MRE 801(d)(1)(A) (inconsistent prior statements made under oath
and subject to the penalty of perjury are not
hearsay); People v. Malone, 445 Mich. 369, 376378; 518 N.W.2d 418 (1994) (statements that are
not hearsay under MRE 801(d)(1) may be used

68a
as substantive evidence). It bears further emphasis that recantation testimony, like what
Edwards proposes, is inherently “suspect and
untrustworthy.” People v. Canter, 197 Mich.
App. 550, 559; 496 N.W.2d 336 (1992). Indeed
“[t]here is no form of proof so unreliable as recanting testimony.” Id. at 559-560 (citation
omitted). In light of this, even if the failure to
investigate Denote were unreasonable, our confidence in the trial’s outcome remains firm.
Edwards, 2015 WL 1069275, *11 (footnote omitted).
To establish ineffective assistance of counsel, a defendant must show both that: (1) counsel’s performance
was deficient, i.e., “that counsel’s representation fell
below an objective standard of reasonableness”; and (2)
the deficient performance resulted in prejudice to the
defense. Strickland , 466 U.S. at 687-88. “[A] court
must indulge a strong presumption that counsel's conduct falls within the wide range of reasonable professional assistance; that is, the defendant must overcome
the presumption that, under the circumstances, the
challenged action ‘might be considered sound trial
strategy.’” Id. at 689 (quoting Michel v. Louisiana, 350
U.S. 91, 101 (1955)). The test for prejudice is whether
“there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different.” Id. at 694. On habeas review, the question becomes “not whether counsel’s actions were reasonable,” but “whether there is any reasonable argument that counsel satisfied Strickland’s
deferential standard.” Richter, 562 U.S. at 105.
The Michigan Court of Appeals did not unreasonably apply the Strickland standard when it denied relief
with respect to this claim. Contrary to Petitioner’s al-

69a
legations, it is clear that his counsel was not unprepared for Deonte Smith’s testimony. During the preliminary examination, counsel cross-examined Smith
regarding the gap of more than a year that he waited to
tell anyone about the event. Dkt. 7-3, at 125-26. The
examination made it clear that counsel was familiar
with Smith’s statement to police. Petitioner has failed
to demonstrate that Smith was open to speaking with
counsel prior to the preliminary examination, as
Smith’s affidavit does not assert that he was willing to
do so. Moreover, it is unclear how an interview would
have changed anything that occurred at the preliminary examination or at trial. Smith may now say he
testified falsely, but he does not claim that he would
have “come clean” earlier had he only been interviewed
by defense counsel.
Finally, even had counsel’s investigation into Smith
somehow aided his efforts in cross-examination, there
is still not a reasonably probability that the result of
the trial would have been different given the very
strong case made against Petitioner. Further investigation of Smith would have done nothing to discredit
Gaca, who watched Petitioner murder the victim. It
would have done nothing to counter the testimony of
the police officer who recovered the murder weapon
Petitioner was seen throwing under a car. Nor would it
have countered the tether data showing that Petitioner
was at the murder scene. Accordingly, Petitioner has
failed to show that he was prejudiced by his counsel’s
alleged failure to further investigate or interview Deonte Smith prior to trial.
As all of Petitioner’s claims are procedurally barred
from review or without merit, the petition will be denied.

70a
IV. CERTIFICATE OF APPEALABILITY
Federal Rule of Appellate Procedure 22 provides
that an appeal may not proceed unless a certificate of
appealability issued. A certificate of appealability may
issue “only if the applicant has made a substantial
showing of the denial of a constitutional right.”
28 U.S.C. § 2253(c)(2). Courts must either issue a certificate of appealability indicating which issues satisfy
the required showing or provide reasons why such a
certificate should not issue. 28 U.S.C. § 2253(c)(3); Fed.
R. App. P. 22(b); In re Certificates of Appealability, 106
F.3d 1306, 1307 (6th Cir. 1997).
To receive a certificate of appealability, “a petitioner must show that reasonable jurists could debate
whether (or, for that matter, agree that) the petition
should have been resolved in a different manner or that
the issues presented were adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell, 537
U.S. 322, 336 (2003) (internal quotes and citations omitted). Here, jurists of reason could debate the Court’s
conclusion that Petitioner is not entitled to habeas relief with respect to his third claim. A reasonable jurist
might dispute this Court’s conclusion that the claim is
procedurally defaulted and whether the alleged violation of Petitioner’s right to counsel at the second crime
scene visit requires automatic reversal.
The Court finds that the resolution of Petitioner’s
remaining claims is not reasonably debatable, so a certificate of appealability will be denied with respect to
them.
V. CONCLUSION
Accordingly, the Court 1) DENIES WITH PREJUDICE the petition for a writ of habeas corpus, 2)

71a
GRANTS a certificate of appealability with respect to
Petitioner’s third claim, and 3) DENIES a certificate of
appealability with respect to his remaining claims.
SO ORDERED.
Dated: July 17, 2018
s/George Caram Steeh
GEORGE CARAM STEEH
UNITED STATES DISTRICT JUDGE

CERTIFICATE OF SERVICE
Copies of this Order were served upon attorneys of record on July
17, 2018, by electronic and/or ordinary mail.
s/Marcia Beauchemin
Deputy Clerk

73a
APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No. 2:17-cv-10101
BRYANT LAMONT ROYSTER,
Petitioner,
v.
TONY TRIERWEILER,
Respondent.
Filed July 17, 2018
Hon. George Caram Steeh
OPINION AND ORDER (1) DENYING PETITION
FOR WRIT OF HABEAS CORPUS, (2) GRANTING
A CERTIFICATE OF APPEALABILITY WITH
RESPECT TO PETITIONER’S THIRD CLAIM,
AND (3) DENYING A CERTIFICATE OF
APPEALABILITY WITH RESPECT TO
PETITIONER’S REMAINING CLAIMS
This is a habeas case filed by a Michigan prisoner
under 28 U.S.C. § 2254.1 Petitioner Bryant Lamont
1

Petitioner was tried with co-defendant Demetrius William
Edwards, who was also convicted of first-degree murder. Edwards filed a petition under § 2254, raising the same claims raised
by Petitioner. See Edwards v. McCullick, Eastern District of
Michigan Case No. 2:17-cv-10103. That petition will be adjudicated
in a separate opinion, though there is a substantial overlap between the two cases.

74a
Royster was convicted after a bench trial in the Wayne
Circuit Court of first-degree felony murder, MICH.
COMP. LAWS § 750.316. Petitioner was sentenced to life
imprisonment.
The petition raises four claims: (1) Petitioner’s
right to a public trial was violated when the courtroom
was cleared of members of the public during his preliminary examination, (2) Petitioner was denied adequate
notice of the charges because the felony information
omitted the element of malice from the felony murder
charge, (3) Petitioner’s right to be personally present,
his right to confront witnesses, and his right to counsel
were violated during two mid-trial visits to the crime
scene, and (4) Petitioner was denied the effective assistance of counsel by his attorney’s failure to investigate
prosecution witness Deonte Smith prior to trial.
The Court finds that Petitioner’s claims are without merit or barred by his state court procedural defaults. Therefore, the petition will be denied. The
Court will, however, grant a certificate of appealability
with respect to Petitioner’s third claim, but it will deny
a certificate of appealability with respect to his other
claims.
I.

BACKGROUND

The Court recites verbatim the relevant facts relied upon by the Michigan Court of Appeals, which are
presumed correct pursuant to 28 U.S.C. § 2254(e)(1).
See Wagner v. Smith, 581 F.3d 410, 413 (6th Cir. 2009):
This case is the latest and—with life sentences—now the last of these young defendants’ routine disrespect for the rule of law. The
facts of this case stretch back to the evening of
September 24, 2010. On that day, Edwards

75a
was free on a GPS tether to “settle [his] affairs,” having been sentenced just the day before for a prior armed robbery conviction. Apparently, those affairs included a trip to the
Eastland Mall with Royster and two acquaintances, Devante Smith and Jaisaun Holt.
Around 8:30 p.m., the decedent, Cedell
Leverett, was sitting in the driver’s seat of his
Mercedes parked in the valet area of Eastland
Mall. Another car was parked nearby. Deborah Gaca observed Edwards get out of the other car, and run towards the valet area in a
crouched position. Edwards was holding a gun.
Royster, who was standing outside the driver’s
side of the other car, yelled, “Pop him, pop that
mother f***** good.” Edwards then fired four
shots into the Mercedes at close range, killing
Leverett. Edwards ran back to the other car,
which was backing out, and fled the scene. Police subsequently arrived and found over $3,000
in the decedent’s pocket. Corroborating Edwards’s and Royster’s presence at the Eastland
Mall during this time were a surveillance video
and Edwards’s tether records.
Holt confirmed in a police interview (which
he later disavowed at trial) that Edwards intended “to get [the decedent’s] glasses and he
hit him,” before Royster whisked them away in
the car. Although Holt also elaborated that
Edwards claimed to have shot the decedent after the decedent brandished a firearm, police
found no weapons in or around the Mercedes or
on the decedent’s person during their investigation immediately after the shooting. De-

76a
vante claimed the others left the Eastland Mall
without him.
Deonte Smith, Devante’s brother, provided
further information regarding the shooting
during a police interview. Deonte stated that
he saw defendants, Holt, and his brother (Devante) at a high school football game sometime
after the shooting. At the game, “they” told
Deonte they had seen a man walking around
the Eastland Mall with a diamond watch and
$12,000 to $15,000 cash in his pocket. Holt kept
tabs on this man and reported to Edwards by
phone. Edwards “bragged” to Deonte that he
tracked the man outside and tried to rob the
man of his watch, but because the man was
reaching for something, Edwards shot him.
Others at the football game told Edwards he
was stupid for not getting anything.
About a week after the shooting, a security
officer at the Northland Mall in Southfield saw
Edwards toss a gun under an SUV in the parking lot while fleeing a fight. Edwards was arrested at the scene. Royster was apparently
arrested shortly thereafter. Subsequent tests
of the gun revealed that this weapon had fired
the shell casings and bullet fragments found in
and around the Mercedes and inside the decedent at the Eastland Mall one week earlier. In
addition, police interviewed another individual
who had previously accompanied the decedent
on the day of his death and whom the police
found at the scene of the Eastland Mall after
the shooting. That individual surrendered a diamond watch and sunglasses. Notably, the decedent’s daughter saw the decedent wearing a

77a
diamond watch and sunglasses earlier that
same day.
The case subsequently proceeded to trial at
the conclusion of which the court made its findings on the record. As noted, the court acquitted defendants of first-degree premeditated
murder, but found them guilty of the offenses
at issue. Defendants were sentenced, and this
appeal followed.
People v. Royster, 2015 WL 1069275, at *1-2 (Mich. Ct.
App. March 10, 2015).
Following his conviction and sentence, Petitioner
filed an appeal of right. His appellate counsel filed a
brief on appeal, raising three claims, the third of which
forms part of his third habeas claim:
I. The trial court’s finding of guilty of felony
murder must be reversed when defendant was
merely present at the mall where the murder
occurred.
II. Defendant was denied due process to a fair
trial when he was denied the effective assistance of counsel when trial counsel failed to
subpoena exculpatory witnesses.
III. Defendant was denied the right of confrontation and the right to a fair trial when the
trial court observed the scene of the crime
without the parties present and used information gathered from the scene to find defendant guilty.
Petitioner also filed a supplemental pro se brief
raising an additional five claims:

78a
I. Defendant Royster was deprived of his
structural right to a public trial when the District Court judge expelled the members of the
public in attendance at the preliminary examination at the end of business hours and proceeded to conduct the preliminary examination
in the complete absence of the general public
and ultimately secured testimony from Deonte
Smith. This error seriously affected the fairness, integrity, and public reputation of the judicial proceedings because the preliminary examination testimony of Deonte Smith which
was secured in violation of defendant Royster’s
Sixth Amendment right to a public trial was ultimately introduced at the trial itself and relied
upon by the trier of fact to convict defendant
Royster of felony murder.
II. Reversal is required where the trial court
failed to comply with the requirements of MCR
6.402(B), to the extent that the trial court judge
completely neglected to ascertain “by personally addressing the defendant, whether defendant Royster voluntarily chose to give up his
Sixth Amendment right to trial by jury, and
given the strong presumption against waiver of
fundamental constitutional rights the waiver
cannot be presumed to be voluntary from a silent record.
III. Reversal is required due to the violation of
Defendant Royster’s Sixth and Fourteenth
Amendment right to adequate notice of charge,
where defendant Royster was charged with
felony murder, but the felony Information and
the statute itself omitted the essential mens
rea of malice element, leaving defendant

79a
Royster completely unaware of the prosecution’s duty to prove this element which hindered his ability to prepare to disprove it.
IV. Defendant Royster was deprived of his
right to be present during all critical stages of
the proceedings where he was excluded from
the viewing of the alleged scene of the crime
over his objection, without adequate justification for his exclusion, denied his right to confrontation when one of the star witnesses was
permitted to attend the viewing of the alleged
scene of the crime and permitted to provide
additional testimony in defendant Royster’s
absence, completely deprived of his Sixth
Amendment right to counsel during a critical
stage of the proceedings when the trial court
judge who was also the trier of fact reported to
the alleged scene of the crime, for a second
time, without defendant Royster, his attorney,
or the prosecutor and relied on evidence that
he gathered during his solo viewing to convict
defendant Royster.
V. Defendant Royster was deprived of his
right to the effective assistance of counsel
based on his attorney’s failure to: (1) object to
the admission of transcribed testimony which
was secured in violation of the Sixth Amendment right to a public trial, (2) counsel failed to
object to the trial court judge’s failure to inquire into the voluntariness of the waiver of
trial by jury, and (3) counsel’s failure to object
to the defective felony information.
Petitioner’s first pro se claim now forms his first
habeas claim. His third pro se claim is now his second

80a
habeas claim. His fourth pro se claim makes up the rest
of his third habeas claim. Finally, Petitioner’s fourth
habeas claim asserts a different factual—the failure to
investigate Deonte Smith prior to trial—then the one
presented to the Michigan Court of Appeals.
The Michigan Court of Appeals affirmed Petitioner’s convictions in an unpublished opinion. Royster,
2015 WL 1069275. Petitioner subsequently filed an application for leave to appeal in the Michigan Supreme
Court, raising the same claims that he raised in the
Michigan Court of Appeals. The Michigan Supreme
Court denied the application because it was not persuaded that the questions presented should be reviewed. People v. Royster, 870 N.W.2d 67 (Mich. Oct.
15, 2015)(Table).
II. STANDARD OF REVIEW
28 U.S.C. § 2254(d)(1) curtails a federal court’s review of constitutional claims raised by a state prisoner
in a habeas action if the claims were adjudicated on the
merits by the state courts. Relief is barred under this
section unless the state court adjudication was “contrary to” or resulted in an “unreasonable application of”
clearly established Supreme Court law.
“A state court’s decision is ‘contrary to’ … clearly
established law if it ‘applies a rule that contradicts the
governing law set forth in [Supreme Court cases]’ or if
it ‘confronts a set of facts that are materially indistinguishable from a decision of [the Supreme] Court and
nevertheless arrives at a result different from [this]
precedent.’” Mitchell v. Esparza, 540 U.S. 12, 15-16
(2003) (per curiam), quoting Williams v. Taylor, 529
U.S. 362, 405-06 (2000).

81a
“[T]he ‘unreasonable application’ prong of the statute permits a federal habeas court to ‘grant the writ if
the state court identifies the correct governing legal
principle from [the Supreme] Court but unreasonably
applies that principle to the facts’ of petitioner’s case.”
Wiggins v. Smith, 539 U.S. 510, 520 (2003), quoting Williams, 529 U.S. at 413.
“A state court’s determination that a claim lacks merit
precludes federal habeas relief so long as ‘fairminded
jurists could disagree’ on the correctness of the state
court’s decision.” Harrington v. Richter, 562 U.S. 86,
101 (2011), quoting Yarborough v. Alvarado, 541 U.S.
652, 664 (2004). “Section 2254(d) reflects the view that
habeas corpus is a guard against extreme malfunctions
in the state criminal justice systems, not a substitute
for ordinary error correction through appeal. ... As a
condition for obtaining habeas corpus from a federal
court, a state prisoner must show that the state court’s
ruling on the claim being presented in federal court was
so lacking in justification that there was an error well
understood and comprehended in existing law beyond
any possibility for fairminded disagreement.” Richter,
562 U.S. at 103 (internal quotation omitted).
III. ANALYSIS
A. Public Trial
Petitioner’s first claim asserts that his right to a
public trial was violated when the state district judge
cleared members of the public from the courtroom during the first day of the preliminary examination. Petitioner claims that the error was prejudicial because after the courtroom was cleared witness Deonte Smith
provided what Petitioner claims is the only evidence
that the murders were perpetrated during the course

82a
of a robbery. Respondent asserts in part that the claim
is procedurally defaulted because no contemporaneous
objection was made to the closure of the courtroom.2
The Sixth Amendment to the United States Constitution guarantees that a criminal defendant, “shall
enjoy the right to a … public trial.” U.S. Const.
Amend. VI. This right is made applicable to the States
through the Fourteenth Amendment. Presley v. Georgia, 558 U.S. 209, 212 (2010) (citing In re Oliver, 333
U.S. 257 (1948)). “The requirement of a public trial is
for the benefit of the accused; that the public may see
he is fairly dealt with and not unjustly condemned, and
that the presence of interested spectators may keep his
triers keenly alive to a sense of their responsibility and
to the importance of their functions.” Id., at 270 n.25
(quotation marks and citation omitted). “In addition to
ensuring that judge and prosecutor carry out their duties responsibly, a public trial encourages witnesses to
come forward and discourages perjury.” Waller v.
Georgia, 467 U.S. 39, 46 (1984).
The Waller Court identified four factors a court
must consider, and findings a court must make, before
excluding members of the public from the courtroom:
(I)“the party seeking to close the hearing must advance
an overriding interest that is likely to be prejudiced,”
(ii) “the closure must be no broader than necessary to
protect that interest,” (iii) “the trial court must consider reasonable alternatives to closing the proceeding,”
2

Petitioner asserts that Respondent abandoned its procedural default defense because it conflates the concept of “forfeiture”
and “waiver.” See Dkt. 7, Reply Brief, at 18-19. Petitioner’s assertion is incorrect. Respondent’s Answer clearly asserts that review of this claim is barred by Petitioner’s procedural default in
addition to being waived. See Dkt. 5, Response, at 30-31.

83a
and (iv) “it must make findings adequate to support the
closure.” Id. at 48.
Like many other constitutional rights held by the
criminally accused, however, the right to a public trial
may be forfeited or waived if not asserted. See Levine
v. United States, 362 U.S. 610, 619 (1960) (“The continuing exclusion of the public in this case is not to be
deemed contrary to the requirements of the Due Process Clause without a request having been made to the
trial judge to open the courtroom at the final stage of
the proceeding, thereby giving notice of the claim now
made and affording the judge an opportunity to avoid
reliance on it. This was not a case of the kind of secrecy
that deprived petitioner of effective legal assistance
and rendered irrelevant his failure to insist upon the
claim he now makes. Counsel was present throughout,
and it is not claimed that he was not fully aware of the
exclusion of the general public.”).
As the Sixth Circuit explained:
While we agree that the right to a public trial is
an important structural right, it is also one that
can be waived when a defendant fails to object
to the closure of the courtroom, assuming the
justification for closure is sufficient to overcome the public and media’s First Amendment
right to an open and public trial proceeding.
See Freytag v. Commissioner, 501 U.S. 868,
896 (1991) (“[T]he Sixth Amendment right to a
trial that is ‘public,’ provide[s] benefits to the
entire society more important than many structural guarantees; but if the litigant does not assert [it] in a timely fashion, he is foreclosed.”)
(collecting cases); see also Peretz v. United
States, 501 U.S. 923, 936-37 (1991) (citing Lev-

84a
ine v. United States, 362 U.S. 610, 619 (1960)).
Because [the habeas petitioner] failed to object
to the closure, his claim is procedurally defaulted unless he can show cause and prejudice for
the default. Coleman v. Thompson, 501 U.S.
722, 750 (1991).”
Johnson v. Sherry, 586 F.3d 439, 444 (6th Cir. 2009).
Here, neither counsel for Petitioner nor counsel for
his co-defendant objected to the removal of members of
the public during the preliminary examination.
The record indicates that for about a half-hour during the first day of the preliminary examination, proceedings were interrupted by repeated disturbances by
members of the public, prompting the court to remove
members of the public from the hearing. In the midst
of an otherwise unremarkable examination of a witness
by the prosecutor during the preliminary examination,
there appears an alarming entry in the record: “(At
3:54 p.m. to 3:55 p.m., riot in courtroom).” Dkt. 6-3, at
76. The next fifteen pages of the record describe the
tumult in the courtroom and the court’s efforts to retain
control over the proceedings:
• The court warns anyone that is standing that
they will be arrested. Id. at 76.
• A police officer orders an unidentified man
out of the courtroom. Id.
• The court warns the people in the courtroom
about the dangers of a mob mentality. Id. at
77.
• Two people leave the courtroom crying. Id.

85a
• A member of the public accuses one of the defendants saying, “that’s why that motherfucker
dead.” Id.
• A member of the public accuses one of the defendants of spitting on a girl in the courtroom.
Id.
• The record indicates, “(At 3:59 p.m. to 4:00
p.m., another riot in courtroom and in hallway).” Id. at 78-79.
• The court orders one side of the gallery, apparently the side there in support of the defendants, to leave. Id. at 79.
• A woman is arrested after swearing. Id.
• The court orders that both “sides” will be removed and it will “hold court in private.” Id. at
80.
• A man asks the court what happened to his
wife, saying that “her head is swelled up this
big. We’re supposed to be protected in here.”
Id.
• The court indicates that police from seven jurisdictions are present. Id.
• A police chief asks for an additional ten
minutes before removing the second half of the
gallery, apparently those present in support of
the victim. Id.
• The court indicates that it will attempt to
“clear the area so you don’t get jumped by anybody where we don’t have security cameras, or
anybody there to help you.” Id. at 81.

86a
• A police lieutenant indicates that the second
side of courtroom will not be removed because
“we assume the problem is gone.” Id.
• A few minutes later, the court reverses
course again and indicates that the second side
will, in fact, be removed “[after] it’s clear outside, these people will be released.” Id. at 82.
• The court states: “This is very, very disturbing. I have never—I’ve been here thirty-five
years, and I have never had anything close to
anything like this. Nothing close.” Id. at 83.
• The court warns defendant Edwards that if
he stands up again he will be “banished from
the rest of the proceedings.” Id.
• A witness is brought in a scout car, “[b]ut we
didn’t want to bring him through. … With everything that’s going on. … They’ll be bringing
him right through the side.” Id. at 91.
• The court removes the rest of the public at
4:29, stating: “I’m going to now empty the
courtroom. I’m advised that it should be safe
for you. The police will be out there looking to
make sure none of you are jumped, or anything.
But I can’t guarantee your safety.” Id. at 100.
• After the courtroom is emptied, the examination of Deonte Smith continues until 5:59. Id. at
181.
At no point in the proceedings did either attorney
for the defendants object to any of the actions of the
court. On the next morning of the preliminary examination the court indicated that it had entered an order
agreed upon by the parties limiting access of the public
for the remainder of the preliminary examination:

87a
The Court: I have created an Order that provides for limited seating. I asked defense counsel for the name of the witnesses that they
would like to have present, and they gave me a
list. The, and for the—not the Attorney General, the prosecuting office, for the victim’s
family. And we have, and I have entered an
Order yesterday limiting it to these people that
were agreed to … .
*

*

*

And so we are all satisfied at this point. I
understand we’re going to place on the record
that between all the parties, we have no objections to proceeding with this reduced access to
the public. We did provide that the public
could be these witnesses, but also any other
members of the press with credentials, and of
course, what we call resources of police response.
So, Ms. Towns [the prosecutor], are we in
agreement on that?
Ms. Towns: Yes, Judge. That’s fine with the
People.
The Court: And Mr. Glanda [counsel for Edwards]?
Mr. Glanda: Yes, Judge.
The Court:
Royster]?
Ms. Diallo:
Royster.
Dkt. 6-5, at 3-5.

And Ms. Diallo [counsel for
No objection on behalf of Mr.

88a
“In all cases in which a state prisoner has defaulted
his federal claims in state court pursuant to an independent and adequate state procedural rule, federal
habeas review of the claims is barred unless the prisoner can demonstrate cause for the default and actual
prejudice as a result of the alleged violation of federal
law, or demonstrate that failure to consider the claims
will result in a fundamental miscarriage of justice.”
Coleman v. Thompson, 501 U.S. 722, 750 (1991).
A four-part test is used to determine whether a
claim is procedurally defaulted: (1) there exists a state
procedural rule that is applicable to the petitioner’s
claim and the petitioner failed to comply with the rule,
(2) the state courts actually enforced the state procedural sanction, (3) the state procedural ground is an adequate and independent state ground on which the
state can rely to foreclose review of a federal constitutional claim, and (4) the petitioner has not demonstrated cause for failing to follow the procedural rule and
actual prejudice. Stone v. Moore, 644 F.3d 342, 346 (6th
Cir. 2011).
The first inquiry is whether there exists a procedural rule applicable to Petitioner’s claim, and whether
Petitioner violated it. Michigan courts “have long recognized that, in general, an issue is not properly preserved for appeal if it is not raised before the trial
court.” People v. Bauder, 712 N.W.2d 506, 510 (Mich.
Ct. App. 2005) (citing People v. Grant, 520 N.W.2d 123,
128 (Mich. 1994)). Petitioner’s counsel did not comply
with the procedural rule when she failed to object to
the state district court’s actions during the disruptions
on the first day of the preliminary examination. When
the matter was discussed the next morning, counsel
agreed to the Court’s order limiting access of the public
to the remainder of the preliminary examination, and

89a
she made no objection regarding the court’s actions of
the previous day. Accordingly, Petitioner failed to
comply with Michigan’s contemporaneous objection
rule, and, therefore, the first prong of the procedural
default test is met.
Next, the Michigan Court of Appeals enforced the
procedural sanction. In determining whether state
courts have relied on a procedural rule to bar review of
a claim, a court looks to the last reasoned opinion of the
state courts and presumes that higher state courts not
rendering an explained decision enforced the bar as
well. Hinkle v. Randle, 271 F.3d 239, 244 (6th Cir.
2001) (citing Ylst v. Nunnemaker, 501 U.S. 797, 803
(1991)). Furthermore, this court has recognized that
“[p]lain error analysis … is not equivalent to a review
of the merits,” and plain error review enforces rather
than waives procedural default rules. Lundgren v.
Mitchell, 440 F.3d 754, 765 (6th Cir. 2006); Hinkle, 271
F.3d at 244 (characterizing plain error review as the
enforcement of a procedural default). The Michigan
Court of Appeals, the last state court to issue a reasoned opinion reviewing co-defendant Edward’s public
trial claim, found that it was subject to plain error review, and later in the opinion noted that Royster’s
claim was subject to the same standard:
“[A] defendant’s right to a public trial is subject to the forfeiture rule articulated in People
v. Carines, [460 Mich. 750; 597 N.W.2d 130
(1999)] . …” People v. Vaughn, 491 Mich. 642,
646; 821 N.W.2d 288 (2012). Thus, for [Petitioner] to prevail on this unpreserved issue, he
must show plain error affecting his substantial
rights, i.e., outcome determinative error.
*

*

*

90a
Royster lodged no objection on this novel theory (or on any other ground) below, and so we
are looking for outcome determinative error
that adversely affected the proceedings or resulted in the conviction of an innocent defendant. Carines, 460 Mich at 774.
*

*

*

Royster’s failure to object yet again leaves us
looking for plain error affecting substantial
rights.
Royster, 2015 WL 1069275, *3, 14. The Michigan Supreme Court subsequently denied leave to appeal by
unexplained order. Therefore, the state courts enforced the contemporaneous-objection procedural sanction.
Third, the Court must determine whether the procedural bar was an “adequate and independent” state
ground foreclosing a merits review of Petitioner’s
claim. The adequate and independent state ground
doctrine “applies to bar federal habeas when a state
court declined to address a prisoner’s federal claims because the prisoner had failed to meet a state procedural
requirement.” Coleman, 501 U.S. at 729-30. “The adequacy of a state procedural bar turns on whether it is
firmly established and regularly followed; a state rule is
independent if the state court actually relies on it to
preclude a merits review.” Biros v. Bagley, 422 F.3d
379, 387 (6th Cir. 2005) (citing Abela v. Martin, 380
F.3d 915, 921 (6th Cir. 2004) (citation omitted)). The
Sixth Circuit has recognized that Michigan’s contemporaneous objection rule is regularly followed. Simpson
v. Jones, 238 F.3d 399, 409 (6th Cir. 2000) (citing Draper
v. Adams, No. 98-1616, 2000 WL 712376, at *9 (6th Cir.
2000) (unpublished table decision)).

91a
Petitioner argues that enforcement of the contemporaneous objection rule does not provide an adequate
basis to bar review of his public trial claim because the
Supreme Court has enforced the right despite a lack of
objection at trial. See Dkt. 7, Reply Brief, at 19-22 (citing In re Oliver, 333 U.S. 257, 272 (1948); Gannet Co v.
DePasquale, 443 U.S. 368, 375 (1979); Richmond Newspapers v. Virginia, 448 U.S. 555, 560 (1980); Waller, 467
U.S. at 42 n. 2; Presley, 130 S.Ct. at 724 (“The public
has a right to be present whether or not any party has
asserted the right.”)). Most of the cases relied upon by
Petitioner, however, do not concern application of the
existent habeas corpus procedural-default doctrine to a
public trial claim. The one case that does, Waller, undermines Petitioner’s position. The footnote cited by
Petitioner states that four of the five habeas petitioners
had objected at trial, and that as to the petitioner that
did not object, the case was remanded to determine
whether his public trial claim was procedurally barred.
Accordingly, the Waller court recognized that a contemporaneous objection rule is an adequate ground for
defaulting a public trial claim. Moreover, the Court
notes that under binding Sixth Circuit precedent the
procedural default doctrine applies to public trial
claims. See Bickham v. Winn, 888 F.3d 248, 251 (6th
Cir. 2018); Johnson, 586 F.3d at 444 (6th Cir. 2009). Finally, the Court notes that the justification for closing
the proceeding here—rioting and ensuring the physical
safety of members of the public—was sufficient to
overcome the public and media’s First Amendment
right to an open and public proceeding. The Court cannot conceive of a more appropriate reason for closing a
proceeding.
Because Petitioner failed to comply with a state
procedural rule constituting an adequate and independ-

92a
ent state ground for the state court’s decision, review
of his public trial claim is barred unless he can “demonstrate … that there was cause for him not to follow the
procedural rule and that he was actually prejudiced by
the alleged constitutional error.” Stone, 644 F.3d at 346
(quoting Maupin, 785 F.2d at 138).
“[C]ause for a procedural default must ordinarily turn
on whether the prisoner can show that some objective
factor external to the defense impeded counsel’s efforts
to comply with the State’s procedural rule.” Murray v.
Carrier, 477 U.S. 478, 488 (1986). Petitioner’s reply
brief does not attempt to assert cause to excuse his default, choosing instead to argue that Respondent
waived the defense or that the defense does not apply
to public trial claims. Accordingly, Petitioner has completely failed to demonstrate cause to excuse the procedural default of his public trial claim.
Nevertheless, it should be noted that Petitioner’s
supplemental pro se brief filed in the Michigan Court of
Appeals argued that his counsel was ineffective for failing to object to the introduction of Deonte Smith’s preliminary examination testimony at trial because it was
elicited during the closed pretrial proceeding. See Defendant-Appellant’s Standard 4 Brief, at 47 ff. When a
petitioner claims ineffective assistance of counsel as
cause for a procedural default, the allegation of ineffectiveness is a separate claim which must itself be exhausted in state court according to the normal procedures. Edwards v. Carpenter, 529 U.S. 446, 452 (2000).
The argument made by Petitioner to the Michigan
Court of Appeals regarding his counsel’s failure to object to the introduction of Smith’s testimony is distinct
from a claim that counsel was ineffective for failing to
object to the closure itself at the preliminary examination. According to Edwards, the failure to exhaust the

93a
ineffectiveness claim will itself constitute a procedural
default of the cause argument and prevents a federal
court from hearing it. 529 U.S. at 452. Petitioner never
exhausted a claim that his trial counsel was ineffective
for failing to contemporaneously object to the closure of
the courtroom during the preliminary examination.
Therefore, Petitioner may not argue here that the ineffectiveness of his counsel constitutes cause to excuse
his procedural default.
In any event, ineffective assistance of counsel only
suffices if the deficient performance purporting to provide cause for the default would be sufficient to merit
its own independent constitutional claim. Edwards, 529
U.S. at 451. In order to prevail on a claim of ineffective
assistance of counsel, Petitioner “must show both that
his counsel’s performance was deficient and that the
deficient performance prejudiced the defense.”
Hodges v. Colson, 711 F.3d 589, 613 (6th Cir. 2013) (citing Strickland v. Washington, 466 U.S. 668, 687-88
(1984)). To show deficiency, Petitioner must establish
that “counsel made errors so serious that [he] was not
functioning as the ‘counsel’ guaranteed … by the Sixth
Amendment.” Strickland, 466 U.S. at 687. Petitioner
has failed to demonstrate that his counsel performed
deficiently in failing to object to the closure of the
courtroom. Specifically, nothing in the record suggests
that the court would have been inclined to keep the
courtroom open to the unruly mob present had an objection been made by counsel. Rather, it is reasonable
to conclude that had defense counsel asserted Petitioner’s right to a public proceeding and cited Waller, the
court simply would have gone over the Waller factors
and ruled that closure was nonetheless warranted.

94a
Where, as here, a petitioner fails to show cause, the
Court need not consider whether he has established
prejudice. See Smith v. Murray, 477 U.S. 527, 533
(1986); Engle v. Isaac, 456 U.S. 107, 134 n.43 (1982).
Finally, Petitioner has not established that a fundamental miscarriage of justice has occurred. The miscarriage of justice exception to the procedural default
rule requires a showing that a constitutional violation
probably resulted in the conviction of one who is actually innocent. Schlup v. Delo, 513 U.S. 298, 326-27 (1995).
“[A]ctual innocence means factual innocence, not mere
legal insufficiency.” Bousley v. United States, 523 U.S.
614, 624 (1998) (citation omitted). “To be credible, [a
claim of actual innocence] requires petitioner to support
his allegations of constitutional error with new reliable
evidence—whether it be exculpatory scientific evidence, trustworthy eyewitness accounts, or critical
physical evidence—that was not presented at trial.”
Schlup, 513 U.S. at 324. Petitioner has made no such
showing. This claim, therefore, is procedurally defaulted.
B. Notice of Charges
Petitioner’s second claim asserts that he had insufficient notice of the charges against him because the
Felony Information failed to notify him of the requirement that first-degree felony murder requires that the
accused acted with malice. Petitioner further asserts
that, contrary to the decision of the Court of Appeals
rejecting this claim, a defective charging instrument
cannot be cured by the testimony offered at a preliminary examination or by the language contained in a different count of the charging document.
As it did with Petitioner’s first claim, the Michigan
Court of Appeals found that review of this claim was

95a
limited to “plain error” because the claim was not preserved in the trial court. Royster, 2015 WL 1069275,
*7, 14. Accordingly, for the same reasons outlined
above, review of Petitioner’s second claim is procedurally barred from review, and Petitioner has failed to
demonstrate cause to excuse the default.
Nevertheless, the claim is without merit. The
Sixth Amendment to the United States Constitution
provides that, “[i]n all criminal prosecutions, the accused shall enjoy the right … to be informed of the nature and cause of the accusation.” U.S. Const., amend.
VI. The Sixth Circuit has explained this right, as applied to the States through the Fourteenth Amendment, as follows:
The due process clause of the Fourteenth
Amendment mandates that whatever charging
method the state employs must give the criminal defendant fair notice of the charges against
him to permit adequate preparation of his defense. In re Ruffalo, 390 U.S. 544 (1968); Blake
v. Morford, 563 F.2d 248 (6th Cir. 1977); Watson v. Jago, 558 F.2d 330, 338 (6th Cir. 1977).
This requires that the offense be described
with some precision and certainty so as to apprise the accused of the crime with which he
stands charged. Such definiteness and certainty are required as will enable a presumptively
innocent man to prepare for trial. Combs v.
Tennessee, 530 F.2d [695, 698 (6th Cir. 1976)].
Koontz v. Glossa, 731 F.2d 365, 369 (6th Cir. 1984).
After finding that the claim was defaulted, the
Michigan Court of Appeals rejected Royster’s claim for
the reasons it rejected Edwards’ claim:

96a
The felony information coupled with the
preliminary examination was constitutionally
sufficient to dispel the ignorance that Edwards
claims was plaguing him below. With respect
to felony murder, the information alleged that
Edwards “did while in the perpetration or attempted perpetration of a larceny, murder one
[sic] Cedell Leverett; contrary to MCL
750.316(1)(b),” punishable by [l]ife without parole.” This fairly apprised Edwards of the nature of the offense as required by court rule
and statute. See MCR 6.112(D) (requiring the
information to set forth the notice required by
MCL 767.45, in addition to the substance of the
accusation and the applicable penalty, among
other things), and MCL 767.45(1)(a) (requiring
the information to contain “[t]he nature of the
offense stated in language which will fairly apprise the accused and the court of the offense
charged.”). Moreover, the facts presented at
the preliminary examination mirror those presented at trial. They showed Edwards approaching the decedent in a crouched position
and holding a gun with the intent to rob him.
“Malice may … be inferred from the use of a
deadly weapon.” Carines, 460 Mich. at 759. A
gun is a dangerous weapon. See People v. Parker, 417 Mich. 556, 565 (1983). Accordingly, the
felony information, framed with reference to
this evidence, fairly apprised Edwards of the
requisite intent of this offense.
Edward’s argument that had he known
that felony murder requires a malicious intent,
he would have testified that he lacked malice
when he shot the decedent, defies common

97a
sense. Although the information did not expressly contain a “malice” theory in support of
the felony murder charge, the information for
the first-degree premeditated murder charge
explicitly alleged that Edwards acted “deliberately, with the intent to kill ... .” (Emphasis
added.) Malice includes the intent to kill.
Smith, 478 Mich. at 318-319. Even with this notice, Edwards elected not to testify.
In light of this, Edwards was fully apprised
of the nature of the charges against him and his
ability to defend against them was certainly not
prejudiced.
*

*

*

Royster’s failure to object yet again leaves us
looking for plain error affecting substantial
rights.
Royster, 2015 WL 1069275, *8, 14.
This decision was not unreasonable. Petitioner’s
argument hinges on the premise that it is unreasonable
to expect a lay person to understand that a charging
document that alleged the accused “did while in the
perpetration or attempted perpetration of a larceny,
murder one [sic] Cedell Leverett; contrary to MCL
750.316(1)(b),” required the prosecutor to prove that he
acted with malice. See, e.g., Dkt. 7, Petitioner’s Reply,
at 24 (“No fair-minded jurist would expect a nonlawyer criminal defendant to review a charging instrument and somehow recognize that a critical element
was amiss from one of the charged offenses, then expect the same layman criminal defendant to look for the
omitted element amongst another separate and distinct

98a
charge and carry that element over to the defective
charge.”).
The argument completely ignores the fact that at
all times during state court proceedings Petitioner was
represented by presumptively competent counsel. The
Supreme Court has stated that “‘it may be appropriate
to presume that in most cases defense counsel routinely
explain the nature of the offense in sufficient detail to
give the accused notice of [the offense charged].” Marshall v. Lonberger, 459 U.S. 422, 436 (1983) (quoting
Henderson v. Morgan, 426 U.S. 637, 647 (1976)). Here,
the requirement to prove malice to support a charge of
first-degree felony murder was established by the
Michigan Supreme Court in 1980. See People v. Aaron,
409 Mich. 672 (1980). Aside from the fact that the
charging document clearly accused Petitioner of murdering the victim during the perpetration of a larceny
(and murder requires malice), it is appropriate to presume that Petitioner’s attorneys informed him of the
nature of the felony murder charge, including the malice element that had been established in Michigan for
over thirty years. Petitioner made no allegation in the
state courts—and he makes none here—that his counsel failed to inform him of the nature of the charges
against him.
For the same reasons, Petitioner has failed to
demonstrate that he was actually prejudiced by his
counsel’s failure to object to the felony information so
as to excuse the procedural default of this claim. Petitioner’s supplemental pro se brief filed in the Michigan
Court of Appeals asserting that counsel was ineffective
for failing to object to the felony information completely fails to develop this argument. See DefendantAppellant’s Standard 4 Brief, at 50.

99a
Petitioner’s second claim is both procedurally
barred from review and without merit.
C. Visits to the Crime Scene
Petitioner’s third claim raises his strongest challenge to the validity of his conviction. Petitioner asserts that several of his constitutional rights were violated during two trips to the crime scene. he first trip
occurred without Petitioner being present, and the second trip occurred outside both Petitioner or his counsel’s presence. Petitioner alleges that both visits violated his Sixth Amendment right to be personally present at all critical stages of the proceedings, that the
first visit denied his Sixth Amendment right to face-toface confrontation when one of the witnesses also attended the crime scene visit, and that the second visit
violated his Sixth Amendment right to counsel during a
critical stage of the proceedings and violated his right
to confront witnesses.
The Michigan Court of Appeals, discussing codefendant Edwards’ similar claims first, rejected them
as follows:
This brings us to the argument in Edwards’s principal brief that the trial court twice
improperly viewed the scene of the crime and
denied him the right to confront Gaca when she
accompanied the court to the scene. This issue
first appears on the record during the second
day of trial when the court indicated that the
attorneys would accompany the court to the
crime scene. Apparently, this was originally
planned to occur without defendants present,
for when defendants’ attorneys subsequently
indicated their clients’ desire to attend this
viewing, the court canceled the visit unless de-

100a
fendants “change[d] their mind.” Subsequently, while delivering its factual findings, the trial
court noted that there “was a[n] independent
going to the scene of the crime with defense
counsel and the officer-in-charge, but we were
met with Ms. Gaca and to basically get the site
of where she was and where the cars were
[sic].” The court added that it “also went to the
mall at approximately 10:30, 10:00, 10:30 p.m. at
night to see what the night light looked like.
And as I indicated earlier, you could see very
well into the parking lot area. It was very welllit.”
As a preliminary matter, Edwards has
waived any claim concerning both the court’s
first viewing of the scene and confronting the
eyewitness there. His counsel was not only
present during those events, but counsel additionally agreed on the two questions asked of
Gaca, which pertained only to her vantage
point during the shooting. Even more, Edwards’s counsel stipulated that Gaca’s testimony on this score be read into the record. See
People v. McPherson, 263 Mich. App. 124, 139
(2004) (a party waives appellate review when
the conduct of the party or his counsel
“invit[es] the error and fails to object”), citing
People v. Carter, 462 Mich. 206, 215-216 (2000);
see also People v. Riley, 465 Mich. 442, 448
(2001). Regardless, even if the issue were not
waived, our review would be for outcome determinative error since Edwards failed to object to either visit or the alleged testimony below. Carines, 460 Mich. at 764-765 (a claim of
constitutional error requires a contemporane-

101a
ous objection to preserve it for appeal); see also
People v. Broadnax, 57 Mich. App. 621, 622-623
(1975) (defendant could not raise this issue for
first time on appeal where, among other things,
defense counsel participated in the judge’s
viewing of the scene and did not object).
With respect to the fact-finder’s viewing of
a crime scene, it is well established that when
the fact-finder is the jury, the viewing constitutes a critical stage of a criminal proceeding
which a criminal defendant has the right to attend with the assistance of counsel. People v.
Kurylczyk, 443 Mich. 289, 296 (1993) (opinion
by GRIFFIN, J.); People v. Kent, 157 Mich.
App. 780, 793 (1987), citing People v. Mallory,
421 Mich. 229, 244-248 (1984). However, Edwards has not cited—nor have we found—
Michigan authority addressing the issue of a
trial court’s viewing of a crime scene in the absence of defendant or his counsel. Several federal courts have held, however, that the same
principles apply. See, e.g., United States v.
Walls, 443 F.2d 1220, 1222-1223 (6th Cir. 1971)
(“The principles applicable to a view by a judge
sitting without a jury are not substantially different [than those applicable to a jury]”);
Payne v. United States, 697 A.2d 1229, 1235
(D.C. 1997), citing Lillie v. United States, 953
F.2d 1188, 1191 (10th Cir. 1992) (finding the
court’s viewing of the crime scene, although erroneous, was not prejudicial). Moreover, while
the Confrontation Clause entitles a criminal defendant the right to a face-to-face meeting
with witnesses appearing before the trier of
fact, the right is not absolute, People v.

102a
Staffney, 187 Mich. App. 660, 663 (1990), and is
not as broad in scope as the right to be present
at trial, Mallory, 421 Mich. at 247.
Assuming the right to attend the viewing
of the scene extends to bench trials, we find no
error requiring reversal. In the first place,
Edwards’s counsel was present for the initial
viewing by the court and Gaca. Moreover,
counsel agreed to the two questions asked of
Gaca and stipulated to her testimony. Those
pertained to her location and whether she
moved during the shooting. Her testimony
that she only moved when the gunman ran towards the car, however, only damaged her
credibility and helped Edwards. On this point,
the trial court expressly found that Gaca stood
50 feet from the incident, rather than the 20
feet she claimed at trial. In view of this, Edwards’s failure to raise this issue below smacks
of harboring error as an appellate parachute.
People v. Riley, 465 Mich. 442, 448 (2001). We
will not tolerate such gamesmanship. But even
if there were error, it certainly was not outcome determinative in light of the overwhelming evidence against Edwards. This included
the evidence of Edwards’s intent to rob the decedent, the forensic evidence linking Edwards’s
gun to the shooting, and the tether and surveillance video placing Edwards at the scene.
Likewise, even if the court’s second viewing were improper, it did not violate Edwards’s
substantial rights. The court indicated that its
only purpose was to confirm the lighting of the
parking lot. That fact was of little consequence
in light of the other incriminating evidence, es-

103a
pecially the surveillance video, tether, and forensic evidence. Again, Edwards was not prejudiced, and, not surprisingly, he makes no claim
that he was actually innocent or that this fundamentally affected the proceedings in an adverse way.
Before moving on, we note that Edwards relies on
United States v. Cronic, 466 U.S. 648 (1984), among
other cases, to suggest that any error was structural
and requires automatic reversal. Edwards ignores,
however, that “every federal circuit court of appeals
has stated, post-Cronic, that an absence of counsel at a
critical stage may, under some circumstances, be reviewed for harmless error.” People v. Murphy, 481
Mich. 919, 923 (2008) (MARKMAN, J., concurring), citing, among others, Satterwhite v. Texas, 486 U.S. 249
(1988), Ellis v. United States, 313 F.3d 636, 643 (1st Cir.
2002) (absence of counsel at critical stage would require
presumption of prejudice only if “pervasive in nature,
permeating the entire proceeding”), and United States
v. Lampton, 158 F.3d 251, 255 (5th Cir. 1998) (applying
harmless-error review when counsel was absent during
adverse testimony). Our facts fall squarely in line with
this authority and we see no compelling reason to deviate today. Reversal is not warranted.
*

*

*

Like Edwards, Royster also challenges the
trial court’s second viewing of the crime scene,
with the added wrinkle of an alleged Confrontation Clause violation. This latter claim alleges in essence that the trial court functioned as a
witness during its second viewing of the crime
scene and should have been subject to cross examination. Royster lodged no objection on this

104a
novel theory (or on any other ground) below,
and so we are looking for outcome determinative error that adversely affected the proceedings or resulted in the conviction of an innocent
defendant. Carines, 460 Mich. at 774. We see
none. As we said before, a criminal defendant
has the right to be present at every stage of a
proceeding and to confront the witnesses
against him. Kurylczyk, 445 Mich. at 296;
Staffney, 187 Mich.App. at 663. At least on the
former ground, the prosecution concedes error,
and indeed, we agree that the trial court’s second viewing of the crime scene was not only erroneous, but imprudent. But even assuming
error on both grounds, Royster can’t get
around the mountain of incriminating evidence
against him. On this score, besides our prior
analysis, we would highlight again Royster’s
vulgar encouragement to Edwards, which eradicates any pretense of actual innocence especially considering that the trial court’s second
visit was to view the lighting in the parking lot.
That is not enough to reverse.
*

*

*

Regarding the crime scene visits, we conclude that Royster waived any challenge to the
first visit and to any testimony Gaca offered
where his counsel attended the visit without
objection and stipulated to the recitation of
Gaca’s testimony into the record. Riley, 465
Mich. at 448, citing, among others, Carter, 462
Mich. at 215-216. But even if there were error,
Gaca’s comments at the scene only harmed her
credibility. Moreover, as we have repeatedly
concluded, the evidence of Royster’s guilt ab-

105a
sent these visits was clear and he is not actually innocent.
Royster, 2015 WL 1069275, *8-10, 14 (footnotes omitted).
The record shows that neither Petitioner nor Edwards objected to either visit on the grounds now asserted in the habeas petition. The prospect of a visit to
the crime scene was first broached during the second
day of trial. Dkt. 6-11, at 114. The court indicated that
“[w]e had a trip planned on side bar tomorrow at lunch.
The plan is to go to the crime scene just with the attorneys.” Id. Both defense attorneys initially objected to
the visit on the grounds that their clients requested to
be present. Id. In view of the objection, the court stated, “[t]hen we’re not going … If they change their
mind, they change their mind.” Id.
It is evident from the record that the defendants
must have, in fact, changed their minds because two
days later the court indicated that the trip had taken
place. Dkt. 6-13, at 36. The court stated that it, along
with the prosecutor, both defense attorneys, police officers, and prosecution witness Deborah Gaca, went the
scene of the shooting. Id. The court further stated that
the parties had agreed to ask Gaca where she had been
positioned during the shooting, and whether she moved
at any point:
[Prosecutor]: Yes, When asked where she
stood, Ms. Gaca positioned herself between the
pillars. And the Court saw where she was
standing, so I don’t need to put that on the record. When asked did you move at all while you
were watching this incident going on, she said
no, the only time she moved was when she saw
the gunman running towards the car. She then

106a
physically backed up against the pole in front of
all of us and showed us the position where she
was after the shooting took place. Is that a
correct and fair assessment of the statements
made by Ms. Gaca?
[Counsel for Royster]: That is, your Honor.
[Counsel for Edwards]: Yes.
[Prosecutor]: And I would stipulate to those
statements. Would you stipulate to those
statements as well?
[Counsel for Royster]: Yes, that’s what she
said at the time, your Honor.
[Counsel for Edwards]: That’s correct.
Id. at 36-37.
The Court then indicated that it visited the scene
on another occasion, and it essentially asked the parties
whether they had any objection to the second visit:
The Court: Anything else? And I will say that
the night before I, myself, went out to just look
at the lighting around the place. I went at approximately 10:00 p.m. to see what it looked
like, the lighting was like at the mall from that
area we were standing yesterday. Anything
else to put on the record regarding that?
[Prosecutor]: Not regarding that, your Honor.
THE COURT: Okay.
[Counsel for Royster]: No, your Honor.
[Counsel for Edwards]: No.
Id. at 37-38.

107a
Despite the defendants’ initial demand to be personally present at any visit, the record demonstrates
that two visits took place, and when the visits where
discussed on the record, neither defendant objected on
any basis. Accordingly, when the Michigan Court of
Appeals reviewed the claims involving the visits, it
found review was limited to the plain error standard
due to the failure of the defendants to object.
With respect to the first visit, the Michigan Court
of Appeals stated: “[W]e conclude that Royster waived
any challenge to the first visit and to any testimony
Gaca offered where his counsel attended the visit without objection and stipulated to the recitation of Gaca’s
testimony into the record. Riley, 465 Mich at 448, citing, among others, Carter, 462 Mich at 215-216.”
Royster, 2015 WL 1069275, *14. With respect to the
second visit, the Michigan Court of Appeals found:
“Royster lodged no objection on [Confrontation Clause
grounds] (or on any other ground) below, and so we are
looking for outcome determinative error that adversely
affected the proceedings or resulted in the conviction of
an innocent defendant. Carines, 460 Mich. at 774.”
Royster, 2015 WL 1069275, *14 (footnotes omitted).
The Court of Appeals did go on to note in the alternative that it agreed with the prosecutor that the second
visit was erroneous, but it found that the “mountain of
incriminating evidence against” Petitioner “eradicates
any pretense of actual innocence.” Id.
Accordingly, as with Petitioner’s previous claims,
this claim is also procedurally defaulted. The decision
of the Court of Appeals indicates that it actually enforced Michigan’s contemporaneous objection rule by
noting Petitioner’s failure to assert his arguments in
the trial court, and as discussed above, the rule is an

108a
adequate and independent state ground foreclosing review of Petitioner’s constitutional claim.
The Court notes the importance of application of
the procedural default rule to this claim. With respect
two of Petitioner’s legal arguments, the claims might
have been resolved on the basis that there was otherwise strong evidence of Petitioner’s guilt, and the limited information gleaned at the visits was not overly
prejudicial to his defense. With respect to Petitioner’s
right to be personally present, the right “is not absolute, but exists only when his presence has a relation,
reasonably substantial, to the fullness of his opportunity to defend against the charge.” United States v.
Henderson, 626 F.3d 326, 343 (6th Cir. 2010) (quotation
marks omitted)). “In other words, the defendant’s
presence is not guaranteed when it would be useless,
but only to the extent that a fair and just hearing would
be thwarted by his absence.” Id. (quotation marks
omitted). Petitioner has not indicated how his personal
presence at either visit would have been useful and was
required for a fair and just hearing.
Similarly with respect to the Confrontation Clause
claim, any violation is subject to harmless error analysis. See Delaware v. Van Arsdall, 475 U.S. 673, 684
(1986)). And here, Petitioner has not shown how his
inability to cross-examine or confront the trial court or
Gaca regarding what they saw or said on either visit
“had a substantial and injurious effect or influence in
determining the [trial court’s] verdict.” Fry v. Pliler,
551 U.S. 112, 116 (2007).
It is reasonably debatable, however, whether the
same analysis applies to Petitioner’s right-to-counsel
claim. The Supreme Court has clearly established that
the complete denial of counsel during a critical stage of

109a
a judicial proceeding mandates a presumption of prejudice. United States v. Cronic, 466 U.S. 648, 659 (1984).
The existence of certain structural defects in a trial,
such as the deprivation of the right to counsel, requires
automatic reversal of the conviction because it infects
the entire trial process. Brecht v. Abrahamson, 507
U.S. 619, 629-30 (1993). In Penson v. Ohio, 488 U.S. 75
(1988), the Supreme Court held that the right to counsel is “‘so basic to a fair trial that [its] infraction can
never be treated as harmless error.’” Id. at 88, quoting
Chapman v. California, 386 U.S. 18, 23 n.8 (1967). Similarly, the Sixth Circuit, citing Cronic, held that
“[h]armless error analysis is never appropriate when a
criminal defendant is denied counsel during a critical
stage of his trial, because prejudice is always presumed
in such circumstances.” Hereford v. Warren, 536 F.3d
523, 541 (6th Cir. 2008), citing Cronic, 466 U.S. at 658.
The Michigan Supreme Court considers a fact-finder’s
viewing of the crime scene to be a critical stage of the
proceeding. See, e.g., People v. Mallory, 421 Mich. 229,
247 (1984). Thus, counsel’s absence at the trial court’s
second visit arguably would have required automatic
reversal of Petitioner’s convictions had a contemporaneous objection been made, and had the trial court then
failed to correct the error.
On the other hand, Respondent asserts that the automatic-reversal rule does not apply to the unobjected
to violation here. Support exists for this assertion a
well. In Satterwhite v. Texas, 486 U.S. 249, 257 (1988),
the Supreme Court held that the automatic reversal
rule for a denial of counsel during a critical stage does
not apply to all cases. The Court stated that even
where counsel is absent during a critical stage, harmless error analysis is nevertheless appropriate “where
the evil caused by a Sixth Amendment violation is lim-

110a
ited to the erroneous admission of particular evidence
at trial.” Id. Here, not unlike Satterwhite, the absence
of counsel was limited to the admission of the trial
court’s observations regarding the lighting conditions
at the scene of the crime, an issue that did not have a
substantial or injurious impact on the result of the trial.
Furthermore, in Woods v. Donald, 135 S. Ct. 1372,
1375 (2015), the habeas petitioner claimed that he was
entitled to habeas relief without a need for demonstrating prejudice where he was denied his right to counsel
when witnesses testified at his trial regarding his codefendant’s guilt. The Supreme Court held that the
Sixth Circuit erroneously granted relief because there
was no clearly established Supreme Court law holding
that the reception of evidence regarding co-defendants
is a critical stage of the proceedings against the petitioner. Id. at 1377. The Court stated, “applies in ‘circumstances that are so likely to prejudice the accused
that the cost of litigating their effect in a particular
case is unjustified.’” Id. at 1378. Here, the trial court’s
second view of the crime scene was performed “just [to]
look at the lighting around the place.” Dkt. 6-13, at 3738. The visit was inconsequential enough that neither
defense counsel opted to put anything on the record,
and the trial court’s findings of fact after trial did not
rely on the lighting he observed as a reason to find Petitioner guilty of the offense.3 Under these circumstances, it would be reasonable to conclude that the trial court’s second crime scene visit was not a critical
3

In fact, Gaca testified that she was about twenty feet away
from the victim’s car at the time of the shooting, but after the
crime scene visit, the Court determined that the distance was
“more like fifty feet,” a finding that benefitted the defense. Dkt. 614. at 55.

111a
stage of the proceedings requiring automatic reversal
had an objection been made.
All of this is to say why the application of the contemporaneous objection rule to this claim is especially
appropriate here. If, notwithstanding Satterwhite and
Woods, the failure to have counsel present at the second visit was a structural error creating the possibility
of automatic reversal, then the error could have been
easily remedied by a timely objection after the trial
court asked the parties if they had anything they
wished to place on the record. Had an objection on the
right-to-counsel grounds been made, the trial court
could have simply disregarded any observations made
during the second visit, thereby curing any error.
Granting relief in the absence of an objection would, in
effect, create a windfall for counsel’s failure to voice an
objection when she was invited to do so.
Accordingly, review of Petitioner’s third claim is
procedurally barred by his failure to object to the visits
to the crime scene absent a showing of cause and prejudice. And as was the case with his previous claims,
Petitioner failed to exhaust a claim that his counsel was
ineffective for failing to object to the visits. As such, he
cannot demonstrate cause to excuse his procedural default. Edwards, 529 U.S. at 452. In any event, Petitioner’s counsel was not ineffective for failing to object
to the crime scene visit. It appears from the record
that counsel wanted the visit to take place, and the observations made there benefitted him by placing Gaca
further away from the scene than she estimated in her
testimony. Petitioner has therefore failed to demonstrate entitlement to habeas relief with respect to his
third claim.

112a
D. Ineffective Assistance of Counsel
Petitioner’s fourth claim asserts that his trial counsel failed to adequately conduct a pretrial investigation
regarding prosecution witness Deonte Smith. Petitioner asserts that neither his nor his co-defendant’s attorneys ever interviewed Smith prior to the preliminary
examination or trial. Petitioner obtained a purported
affidavit from Smith during his direct appeal in which
Smith claims that his trial testimony was false. Specifically, the affidavit asserts that Smith never heard Edwards brag about being involved in the murder or that
the murder occurred during the perpetration of a robbery. The document further claims that Smith refused
to testify at trial because he knew that it would be in
the public presence and people would know that it was
false.
Royster did not raise this particular allegation of
ineffective assistance of counsel in the Michigan Court
of Appeals. Co-defendant Edwards raised this claim,
and the state appellate court rejected it on the merits,
essentially finding that Edwards was not prejudiced
because he had not shown how a pretrial investigation
would have resulted in Smith recanting his preliminary
examination testimony and because the purported affidavit was otherwise not credible. See Royster, 2015
WL 1069275, *11.
To establish ineffective assistance of counsel, a defendant must show both that: (1) counsel’s performance
was deficient, i.e., “that counsel’s representation fell
below an objective standard of reasonableness”; and (2)
the deficient performance resulted in prejudice to the
defense. Strickland v. Washington, 466 U.S. 668, 68788 (1984). “[A] court must indulge a strong presumption that counsel's conduct falls within the wide range

113a
of reasonable professional assistance; that is, the defendant must overcome the presumption that, under
the circumstances, the challenged action ‘might be considered sound trial strategy.’” Id. at 689 (quoting
Michel v. Louisiana, 350 U.S. 91, 101 (1955)). The test
for prejudice is whether “there is a reasonable probability that, but for counsel’s unprofessional errors, the
result of the proceeding would have been different.”
Id. at 694.
Here, the record makes clear that Petitioner suffered no prejudice by his counsel’s alleged failure to interview Smith because the trial court did not consider
Smith’s testimony at all in its findings of fact regarding
Petitioner:
Deonte Smith testified through a prior—well
he didn’t testify, but his testimony was introduced through prior recorded testimony. The
Court is indicating that as part of its ruling in
terms of any statements that Deonte Smith
used regarding what he heard defendant Edwards say, the Court is not using against defendant Royster.
Dkt. 6-14, at 56.
Accordingly, even assuming this claim was exhausted by Petitioner during his direct appeal, Petitioner has failed to demonstrate a reasonable probability that the result of his trial would have been more favorable had his counsel interviewed Smith prior to trial. Simply stated, the finder of fact did not consider
Smith’s prior testimony against Petitioner, and so further impeachment of Smith would not have benefitted
his defense.

114a
Indeed, the case against Petitioner was quite
strong, and it rested on the testimony of two other witnesses. Deborah Gaca, an employee at Eastland Mall,
saw Petitioner standing outside the driver’s side door
and yell to Edwards to “pop him, pop that motherfucker good,” just before she saw Edwards shoot the victim.
She then saw Petitioner drive Edwards away from the
scene. Devante Smith, Deonte Smith’s brother, testified that he was present at the mall with Petitioner,
Edwards, and Jaisaun Holt on the date of the shooting.
He identified Petitioner on videotape footage taken
from the mall’s security cameras. Devante had split up
with the others while shopping, and when he later
looked by himself for the car they arrived in—the one
associated with the shooting—it was gone. The trial
court did not consider Deonte Smith’s testimony in its
finding that Petitioner was guilty of first degree felonymurder as an aider and abettor. Dkt. 6-14, at 62-63.
Accordingly, Petitioner has failed to show that he
was prejudiced by his counsel’s alleged failure to further investigate or interview Deonte Smith prior to trial.
As all of Petitioner’s claims are procedurally barred
from review or without merit, the petition will be denied.
IV. CERTIFICATE OF APPEALABILITY
Federal Rule of Appellate Procedure 22 provides
that an appeal may not proceed unless a certificate of
appealability issued. A certificate of appealability may
issue “only if the applicant has made a substantial
showing of the denial of a constitutional right.” 28
U.S.C. § 2253(c)(2). Courts must either issue a certificate of appealability indicating which issues satisfy the
required showing or provide reasons why such a certif-

115a
icate should not issue. 28 U.S.C. § 2253(c)(3); Fed. R.
App. P. 22(b); In re Certificates of Appealability, 106
F.3d 1306, 1307 (6th Cir. 1997).
To receive a certificate of appealability, “a petitioner must show that reasonable jurists could debate
whether (or, for that matter, agree that) the petition
should have been resolved in a different manner or that
the issues presented were adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell, 537
U.S. 322, 336 (2003) (internal quotes and citations omitted). Here, jurists of reason could debate the Court’s
conclusion that Petitioner is not entitled to habeas relief with respect to his third claim. A reasonable jurist
might dispute this Court’s conclusion that the claim is
procedurally defaulted and whether the alleged violation of Petitioner’s right to counsel at the second crime
scene visit requires automatic reversal.
The Court finds that the resolution of Petitioner’s
remaining claims is not reasonably debatable, so a certificate of appealability will be denied with respect to
them.
V. CONCLUSION
Accordingly, the Court 1) DENIES WITH PREJUDICE the petition for a writ of habeas corpus, 2)
GRANTS a certificate of appealability with respect to
Petitioner’s third claim, and 3) DENIES a certificate of
appealability with respect to his remaining claims.
SO ORDERED.

116a
Dated: July 17, 2018
s/George Caram Steeh
GEORGE CARAM STEEH
UNITED STATES DISTRICT JUDGE

CERTIFICATE OF SERVICE
Copies of this Order were served upon attorneys of record on July
17, 2018, by electronic and/or ordinary mail.
s/Marcia Beauchemin
Deputy Clerk

117a
APPENDIX D
MICHIGAN SUPREME COURT
SC: 151785
COA: 318000
Wayne CC: 13-000935-FC
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v.
DEMETRIUS WILLIAM EDWARDS,
Defendant-Appellant.
Filed October 15, 2015
Lansing, Michigan
ORDER
On order of the Court, the application for leave to
appeal the March 10, 2015 judgment of the Court of
Appeals is considered, and it is DENIED, because we
are not persuaded that the questions presented should
be reviewed by this Court.
I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the foregoing is a true and
complete copy of the order entered at the direction of
the Court.
October 15, 2015

signature
Clerk

119a
APPENDIX E
MICHIGAN SUPREME COURT
SC: 151357
COA: 318025
Wayne CC: 13-000935-FC
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v.
BRYANT LAMONT ROYSTER,
Defendant-Appellant.
Filed October 15, 2015
Lansing, Michigan
ORDER
On order of the Court, the application for leave to
appeal the March 10, 2015 judgment of the Court of
Appeals is considered, and it is DENIED, because we
are not persuaded that the questions presented should
be reviewed by this Court.
I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the foregoing is a true and
complete copy of the order entered at the direction of
the Court.
October 15, 2015

signature
Clerk

121a
APPENDIX F
UNPUBLISHED
STATE OF MICHIGAN COURT OF APPEALS
LC No. 13-000935-FC
Case Nos. 318000/318025
Wayne Circuit Court
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v.
DEMETRIUS WILLIAM EDWARDS,
Defendant-Appellant.
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v.
BRYANT LAMONT ROYSTER,
Defendant-Appellant.
Filed March 10, 2015
OPINION
Before: MARKEY, P.J., and MURRAY and BORRELLO,
JJ.
PER CURIAM.
In these consolidated cases, defendants, Demetrius
William Edwards and Bryant Lamont Royster, appeal
their bench trial convictions arising out of their in-

122a
volvement in a robbery and homicide at the Eastland
Mall in Harper Woods. Both were convicted of firstdegree felony murder, MCL 750.316(1)(b), with Edwards acting as the principal, and Royster as the aider
and abetter.1 Besides this, Edwards was also convicted
of possession of a firearm during the commission of a
felony (felony-firearm), MCL 750.227b, and felon in
possession of a firearm, MCL 750.224f. Edwards faces
prison terms of natural life without parole, two years,
and one to five years, respectively, for his first-degree
felony-murder, felony-firearm, and felon in possession
convictions. Royster likewise received the mandatory
prison sentence of natural life without parole for his
first-degree felony murder conviction. Edwards appeals his convictions and sentences in Docket No.
318000, Royster appeals his in Docket No. 318025.
Both appeals are by right, and in both cases we affirm.
I. BACKGROUND
This case is the latest and—with life sentences—
now the last of these young defendants’ routine disrespect for the rule of law.2 The facts of this case stretch
back to the evening of September 24, 2010. On that
day, Edwards was free on a GPS tether to “settle [his]
affairs,” having been sentenced just the day before for
a prior armed robbery conviction. Apparently, those
1

Defendants were also charged with and acquitted of firstdegree premeditated murder, MCL 750.316(1)(a).
2

Edwards’s previous convictions include armed robbery, felony-firearm, and carrying a concealed weapon, MCL 750.227.
Royster’s previous convictions include: two counts of seconddegree fleeing and eluding, MCL 257.602a(4)(a); intent to deliver
less than 50 grams of a controlled substance, MCL
333.7401(2)(a)(4); felony-firearm; and assault with intent to murder, MCL 750.83.

123a
affairs included a trip to the Eastland Mall with
Royster and two acquaintances, Devante Smith and
Jaisaun Holt.
Around 8:30 p.m., the decedent, Cedell Leverett,
was sitting in the driver’s seat of his Mercedes parked
in the valet area of Eastland Mall. Another car was
parked nearby. Deborah Gaca observed Edwards get
out of the other car, and run towards the valet area in a
crouched position.
Edwards was holding a gun.
Royster, who was standing outside the driver’s side of
the other car, yelled, “Pop him, pop that mother f*****
good.” Edwards then fired four shots into the Mercedes at close range, killing Leverett. Edwards ran
back to the other car, which was backing out, and fled
the scene. Police subsequently arrived and found over
$3,000 in the decedent’s pocket. Corroborating Edwards’s and Royster’s presence at the Eastland Mall
during this time were a surveillance video and Edwards’s tether records.
Holt confirmed in a police interview (which he later
disavowed at trial) that Edwards intended “to get [the
decedent’s] glasses and he hit him,” before Royster
whisked them away in the car. Although Holt also
elaborated that Edwards claimed to have shot the decedent after the decedent brandished a firearm, police
found no weapons in or around the Mercedes or on the
decedent’s person during their investigation immediately after the shooting. Devante claimed the others
left the Eastland Mall without him.
Deonte Smith, Devante’s brother, provided further
information regarding the shooting during a police interview. Deonte stated that he saw defendants, Holt,
and his brother (Devante) at a high school football
game sometime after the shooting. At the game, “they”

124a
told Deonte they had seen a man walking around the
Eastland Mall with a diamond watch and $12,000 to
$15,000 cash in his pocket. Holt kept tabs on this man
and reported to Edwards by phone.
Edwards
“bragged” to Deonte that he tracked the man outside
and tried to rob the man of his watch, but because the
man was reaching for something, Edwards shot him.
Others at the football game told Edwards he was stupid
for not getting anything.3
About a week after the shooting, a security officer
at the Northland Mall in Southfield saw Edwards toss a
gun under an SUV in the parking lot while fleeing a
fight. Edwards was arrested at the scene. Royster
was apparently arrested shortly thereafter. Subsequent tests of the gun revealed that this weapon had
fired the shell casings and bullet fragments found in
and around the Mercedes and inside the decedent at the
Eastland Mall one week earlier. In addition, police interviewed another individual who had previously accompanied the decedent on the day of his death and
whom the police found at the scene of the Eastland Mall
after the shooting. That individual surrendered a diamond watch and sunglasses. Notably, the decedent’s
daughter saw the decedent wearing a diamond watch
and sunglasses earlier that same day.
The case subsequently proceeded to trial at the
conclusion of which the court made its findings on the
record. As noted, the court acquitted defendants of
first-degree premeditated murder, but found them
guilty of the offenses at issue. Defendants were sentenced, and this appeal followed.
3

Because Deonte invoked his Fifth Amendment privilege not
to testify at trial, his preliminary examination testimony was provided at trial.

125a
II. DOCKET NO. 318000 — EDWARDS
Edwards raises a myriad of issues and has also filed
a Standard 4 brief, mirroring almost entirely the issues
presented in his primary brief. For the reasons set
forth below, none of Edwards’s assignments of error
merits reversal of his convictions.
A. RIGHT TO A PUBLIC TRIAL
In both his principal and Standard 4 briefs, Edwards claims for the first time that he was denied his
right to a public trial when the trial court “arbitrarily
evacuated” the courtroom during his preliminary examination. “[A] defendant’s right to a public trial is subject to the forfeiture rule articulated in People v
Carines [460 Mich 750; 597 NW2d 130 (1999)] … .” People v Vaughn, 491 Mich 642, 646; 821 NW2d 288 (2012).
Thus, for Edwards to prevail on this unpreserved issue,
he must show plain error affecting his substantial
rights, i.e., outcome determinative error. To warrant
reversal, such error must result in the conviction of an
actually innocent defendant or otherwise “seriously affect[] the fairness, integrity, or public reputation of judicial proceedings.” Id. at 646, citing Carines, 460 Mich
at 774.
Both the United States and Michigan Constitutions
guarantee a criminal defendant the right to a public trial. US Const, Am VI; 1963 Const, art 1, § 20. This
right is neither absolute nor self-executing, however.
Vaughn, 491 Mich at 648, 653; see also Waller v Georgia, 467 US 39, 46; 104 S Ct 2210; 81 L Ed 2d 31 (1984).
Indeed—contrary to Edwards’s claim—absent an objection, a court is not required to consider alternatives

126a
as Waller otherwise prescribes.4 See Vaughn, 491 Mich
at 663-664; see also People v Bails, 163 Mich App 209,
211; 413 NW2d 709 (1987) (“If an objection had been
made, other alternatives could have been considered.
Given the lack of an objection, the short period the
courtroom doors were locked, and the court’s motive
for ordering the closure, this Court finds the defendant’s Sixth Amendment right to a public trial was not
violated.”).
Regardless—assuming this right extends to preliminary examinations in Michigan5—the crux of Edwards’s challenge is that Deonte changed his testimony
to implicate Edwards only after the trial court cleared
the courtroom. Edwards claims the court’s ostensible
reason for doing so, i.e., that it was closing time, was
4

Waller sets forth a four-part test to justify a courtroom closure when a defendant objects: (1) the party who wishes to close
the proceedings must show an overriding interest which is likely
to be prejudiced by a public trial, (2) the closure must be narrowly
tailored to protect that interest, (3) alternatives to closure must be
considered by the trial court, and (4) the court must make findings
sufficient to support the closure. Waller, 467 US at 48.
5

Whether this right extends to preliminary examinations in
Michigan is unclear. See In re Midland Publishing Co, Inc, 420
Mich 148, 172-173; 362 NW2d 580 (1984) (holding that the public
right of access to criminal trials conferred by the First Amendment “does not extend to preliminary examinations”), but see
Press-Enterprise Co v Superior Court, 478 US 1, 10; 106 S Ct 2735;
92 L Ed 2d 1 (1986) (concluding “that the qualified First Amendment right of access to criminal proceedings applies to preliminary
hearings as they are conducted in California”) (emphasis added)
and Presley v Georgia, 558 US 209, 213; 130 S Ct 721; 175 L Ed 2d
675 (2010) (suggesting without deciding the First and Sixth
Amendment rights to a public trial may be coextensive). Nevertheless, it is unnecessary to settle this question today given both
Edwards’s failure to object and the clear threat to courtroom security posed in this case.

127a
constitutionally insufficient. This misrepresents what
happened. Indeed, the trial court emptied the courtroom because “I’m advised that it should be safe … .”
Our review of the record confirms that safety was of
paramount concern. For starters, “a large police presence” was necessary at the preliminary examination in
anticipation of “trouble.” As it turns out, this was a
prescient decision as several riots broke out in the
courtroom during that examination. During these riots,
spectators shouted profanity, police arrested at least
one person and threatened jail time to others, and Edwards was accused of spitting on someone and exclaiming, “That’s why the mother f***** is dead.” It was for
this reason that the trial court cleared the courtroom in
two phases, waiting 10 to 15 minutes between each
evacuation. Given the court’s explanation before the
second phase that “[w]e’re going to try to clear the area
so you don’t get jumped by anybody where we don’t
have security cameras, or anybody there to help you,”
it is clear the court restricted access to the remainder
of the preliminary examination not because of the lateness of the day, but based on advice “that it was safe”
to do so.6
It is difficult to conceive of a more appropriate reason to restrict public access to a courtroom than this.
To be sure, courts have properly restricted public access to a trial under far less demanding circumstances.
See, e.g., United States v Brazel, 102 F3d 1120, 11551156 (CA 11, 1997) (holding that the trial court’s screening procedures did not violate the defendant’s right to a
public trial where spectators used “fix[ed] stares” to
6

In light of this, the court sufficiently complied with MCR
8.116(D)(1) (permitting a court to restrict access to court proceedings, sua sponte, provided no less restrictive means are available
and the court explains its decision on the record).

128a
intimidate the witnesses); United States ex rel Bruno v
Herold, 408 F2d 125, 127-128 (CA 2, 1969) (holding that
where the trial court excluded spectators who “leaned
forward and grinned and grimaced” at the witness,
there was no Sixth Amendment violation because
“there is no constitutional right to the presence of all
public spectators who might desire to be present—or to
the presence of such element as might be detrimental
to an orderly trial uninfluenced by deterrents to truthful testimony.”). This is because a trial court’s close
familiarity with the nature of the threats requires that
appellate courts show great deference to the trial
court’s security procedures. See United States v DeLuca, 137 F3d 24, 34 (CA 1, 1998) (“prophylactic procedures of an entirely different nature may be required to
safeguard against attempts to intimidate … witnesses
in the performance of their courtroom responsibilities”), citing, among others, United States v Childress,
313 US App DC 133, 145; 58 F3d 693 (1995) (“[T]he trial
court’s choice of courtroom security procedures requires a subtle reading of the immediate atmosphere
and a prediction of potential risks—judgments nearly
impossible for appellate courts to second-guess after
the fact.”). Our deference is no great feat under these
facts, especially considering that Edwards expressly
approved of the court’s decision to partially close the
proceedings to the public the following day based on
what had previously transpired. The trial court articulated sufficient justification to close the courtroom to
the public. Vaughn, 491 Mich at 663-665. No error lies
here.7
7

Because Edwards’s right to a public trial was not violated,
there is no structural error requiring automatic reversal. Vaughn,
491 Mich at 665-666.

129a
B. VOLUNTARY WAIVER OF JURY TRIAL
Next, Edwards claims in his principal brief that the
trial court failed to ascertain whether he voluntarily
waived his right to a jury trial in accordance with MCR
6.402(B). We review this unpreserved issue for plain
error affecting substantial rights. Carines, 460 Mich at
763. “In order for a jury trial waiver to be valid … it
must be both knowingly and voluntarily made.” People
v Cook, 285 Mich App 420, 422; 776 NW2d 164 (2009). A
defendant’s waiver is presumptively valid if the trial
court has complied with MCR 6.402(B). People v Mosly, 259 Mich App 90, 96; 672 NW2d 897 (2003). That
rule requires the trial court first to advise the defendant in open court of his right to a jury trial, and second
to ascertain “by addressing the defendant personally”
that the defendant understands that right and is relinquishing it voluntarily. MCR 6.402(B)
Here, after Edwards’s counsel informed the court
that his client wished to waive his right to trial by jury,
the trial court asked Edwards directly whether he understood this right and “wish[ed]” to relinquish it. This
is nearly identical to the trial court’s colloquy in People
v Shields, 200 Mich App 554, 560-561; 504 NW2d 711
(1993), which this Court deemed sufficient to secure a
voluntary waiver.
Edwards’s claim that he mistakenly believed his
rights were somehow contingent on his co-defendant’s
plea changes nothing where he not only signed a jury
waiver form, but his affidavit contradicts his colloquy
with the trial court and nothing in the record otherwise
supports his claim. See People v Gist, 188 Mich App
610, 612; 470 NW2d 475 (1991) (declining to consider an
affidavit contesting the voluntariness of a jury trial
waiver that was “contrary to what happened in open

130a
court”). Besides, he did not offer this proof below.
People v Shively, 230 Mich App 626, 628 n 1; 584 NW2d
740 (1998) (“The affidavit attached to defendant’s appellate brief will not be considered by this panel to resolve
this issue because it was not part of the lower court
record.”). His claim is meritless.8
C. INCONSISTENT VERDICT
We likewise reject Edwards’s claim—made in both
briefs—that the trial court’s verdict on his felony murder charge was inconsistent with its factual findings.
Because Edwards failed to raise this issue below, it is
unpreserved and he must therefore show plain error
affecting his substantial rights to prevail. People v
Pipes, 475 Mich 267, 277; 715 NW2d 290 (2006);
Carines, 750 Mich at 774.
Inconsistent verdicts, although permissible in jury
trials, are problematic in bench trials. People v Ellis,
468 Mich 25, 26; 658 NW2d 142 (2003). Put simply,
they’re not allowed because trial courts are “not afforded the same lenience” as juries. Id. Thus, if there is a
factual inconsistency between the trial court’s factual
findings and its verdict, reversal is required. People v
Smith, 231 Mich App 50, 53; 585 NW2d 755 (1998).
We conclude the trial court’s verdict was perfectly
consistent with its factual findings. As stated earlier,
Edwards was acquitted of first-degree premeditated
murder, but convicted of first-degree felony murder.
Although similar, the requisite intent of those offenses
8

Edwards’s reliance on Cook is inapposite, considering that
the defendant’s attorney in that case went against his client’s
wishes in waiving the right to a public trial. Cook, 285 Mich App
at 423.

131a
is not necessarily identical. People v Dykhouse, 418
Mich 488, 496; 345 NW2d 150 (1984). First-degree
premeditated murder requires premeditation and deliberation. People v Bennett, 290 Mich App 465, 472;
802 NW2d 627 (2010). First-degree felony murder,
however, requires malice, which broadly includes the
intent to kill, to do great bodily harm, or to create a
very high risk of death or great bodily harm with
knowledge that death or great bodily harm was the
probable result. People v Smith, 478 Mich 292, 318-319;
733 NW2d 351 (2007).
In rendering its verdict on the murder charges, the
court explained:
The Court finds both defendants not guilty of
first-degree homicide premeditated murder.
As to felony murder, Edwards, the Court
finds Edwards guilty of felony murder for the
following reasons: [h]is admission both to Deonte Smith of his attempt to rob the victim of
his expensive watch and glasses. The Court
finds that by not direct and circumstantial evidence [sic]. The Court credits against the testimony of Ms. Gaca that she saw and identified
Mr. Edwards go up to the side of the car and
fire four shots.
The Court doesn’t find that he went there
to—his intent—I don’t believe the he initially
intended to kill him. I think that’s just what
happened during the circumstances.
The evidence corroborates this by the
tether. The shooting was fired at close range.
The still photos, the murder weapon which he

132a
had in his possession just a short time later,
nine days later in Southfield.
The Court thinks that when you look at the
totality of all of the evidence through the testimony of all the witnesses and the expert testimony that the People have met their burden
for felony murder beyond a reasonable doubt.
[Emphasis added.]
The finding that Edwards did not possess the intent to kill at first does not mean Edwards never had
malice. To the contrary—in addition to the tether, the
proximity of Edwards to the decedent during the
shooting, and the surveillance photographs—the court
expressly referenced the remaining evidence in finding
the elements of felony murder satisfied, to wit: Deonte’s statement of Edwards’s intent to rob the decedent,
the eyewitness’s description of events and identification of Edwards as the assailant, testimony that the decedent was wearing an expensive watch and glasses on
the day in question, and the forensic evidence related to
the gun. All of this the trial court found credible, and
we are in no position to upset that determination. MCR
2.613(C); People v Vaughn, 186 Mich App 376, 380; 465
NW2d 365 (1990).
In light of this, the court’s characterization of the
planned robbery as “creat[ing] a very high risk of
death” is well supported and easily satisfies the requisite intent for first-degree felony murder. That the trial court found no initial premeditation or deliberation is
not inconsistent with its verdict, and therefore offers
Edwards no refuge.

133a
D. RIGHT TO NOTICE OF THE CHARGES
We next address Edwards’s claim that his due process right to adequate notice was violated because the
felony information did not disclose the requisite intent
underlying the felony murder charge. While Edwards
raises this issue in both briefs, he failed to raise it below thereby limiting our review to plain error affecting
his substantial rights. Carines, 750 Mich at 774.9
“A defendant’s right to adequate notice of the
charges against [him] stems from the Sixth Amendment, as applied to the states through the Due Process
Clause of the Fourteenth Amendment.” People v
Darden, 230 Mich App 597, 600; 585 NW2d 27 (1998).
“An information is presumed to be framed with reference to the facts disclosed at the preliminary examination.” People v Stricklin, 162 Mich App 623, 633; 413
NW2d 457 (1987).
The felony information coupled with the preliminary examination was constitutionally sufficient to dispel the ignorance that Edwards claims was plaguing
him below. With respect to felony murder, the information alleged that Edwards “did while in the perpetration or attempted perpetration of a larceny, murder
one [sic] Cedell Leverett; contrary to MCL
750.316(1)(b),” punishable by [l]ife without parole.”
This fairly apprised Edwards of the nature of the offense as required by court rule and statute. See MCR
6.112(D) (requiring the information to set forth the no9

Edwards’s Standard 4 Brief misconstrues federal case law in
contesting the preservation requirement of this issue. See United
States v Davis, 306 F3d 398, 411 (CA 6, 2002) (“unless the defendant can show prejudice, a conviction will not be reversed where
the indictment is challenged only after conviction … .”) (Emphasis
added.) This is no different than the Carines standard.

134a
tice required by MCL 767.45, in addition to the substance of the accusation and the applicable penalty,
among other things), and MCL 767.45(1)(a) (requiring
the information to contain “[t]he nature of the offense
stated in language which will fairly apprise the accused
and the court of the offense charged.”). Moreover, the
facts presented at the preliminary examination mirror
those presented at trial. They showed Edwards approaching the decedent in a crouched position and holding a gun with the intent to rob him. “Malice may … be
inferred from the use of a deadly weapon.” Carines,
460 Mich at 759. A gun is a dangerous weapon. See
People v Parker, 417 Mich 556, 565; 339 NW2d 455
(1983). Accordingly, the felony information, framed
with reference to this evidence, fairly apprised Edwards of the requisite intent of this offense.
Edward’s argument that had he known that felony
murder requires a malicious intent, he would have testified that he lacked malice when he shot the decedent,
defies common sense. Although the information did not
expressly contain a “malice” theory in support of the
felony murder charge, the information for the firstdegree premeditated murder charge explicitly alleged
that Edwards acted “deliberately, with the intent to kill
… .” (Emphasis added.) Malice includes the intent to
kill. Smith, 478 Mich at 318-319. Even with this notice,
Edwards elected not to testify.
In light of this, Edwards was fully apprised of the
nature of the charges against him and his ability to defend against them was certainly not prejudiced.10

10

Edwards states conclusively that the absence of “malice”
from the charging document undermined the judicial process. But
his failure to provide any argument on this score renders this issue

135a
E. VIEWING THE CRIME SCENE
This brings us to the argument in Edwards’s principal brief that the trial court twice improperly viewed
the scene of the crime and denied him the right to confront Gaca when she accompanied the court to the
scene. This issue first appears on the record during the
second day of trial when the court indicated that the
attorneys would accompany the court to the crime
scene. Apparently, this was originally planned to occur
without defendants present, for when defendants’ attorneys subsequently indicated their clients’ desire to
attend this viewing, the court canceled the visit unless
defendants “change[d] their mind.” Subsequently,
while delivering its factual findings, the trial court noted that there “was a[n] independent going to the scene
of the crime with defense counsel and the officer-incharge, but we were met with Ms. Gaca and to basically
get the site of where she was and where the cars were
[sic].” The court added that it “also went to the mall at
approximately 10:30, 10:00, 10:30 p.m. at night to see
what the night light looked like. And as I indicated earlier, you could see very well into the parking lot area.
It was very well-lit.”
As a preliminary matter, Edwards has waived any
claim concerning both the court’s first viewing of the
scene and confronting the eyewitness there. His counsel was not only present during those events, but counsel additionally agreed on the two questions asked of
Gaca, which pertained only to her vantage point during
the shooting. Even more, Edwards’s counsel stipulated
that Gaca’s testimony on this score be read into the
record. See People v McPherson, 263 Mich App 124,
abandoned. See People v Kevorkian, 248 Mich App 373, 389; 639
NW2d 291 (2001) (a party abandons an issue by failing to brief it).

136a
139; 687 NW2d 370 (2004) (a party waives appellate review when the conduct of the party or his counsel
“invit[es] the error and fails to object”), citing People v
Carter, 462 Mich 206, 215-216; 612 NW2d 144 (2000); see
also People v Riley, 465 Mich 442, 448; 636 NW2d 514
(2001). Regardless, even if the issue were not waived,
our review would be for outcome determinative error
since Edwards failed to object to either visit or the alleged testimony below.11 Carines, 460 Mich at 764-765
(a claim of constitutional error requires a contemporaneous objection to preserve it for appeal); see also People v Broadnax, 57 Mich App 621, 622-623; 226 NW2d
589 (1975) (defendant could not raise this issue for first
time on appeal where, among other things, defense
counsel participated in the judge’s viewing of the scene
and did not object).
With respect to the fact-finder’s viewing of a crime
scene, it is well established that when the fact-finder is
the jury, the viewing constitutes a critical stage of a
criminal proceeding which a criminal defendant has the
right to attend with the assistance of counsel. People v
11

Edwards claims for the first time on appeal that his counsel
“went behind [his] back” in accompanying the court to the scene.
Edwards offers nothing in his affidavit—let alone any offer of
proof—to substantiate this charge, which is tantamount to accusing his lawyer of violating the Rules of Professional Conduct. See
MRPC 1.4. Nor are we blind to the fact that while Edwards raises
a myriad of ineffective assistance claims both in his principal and
Standard 4 briefs (addressed later in this opinion), not one accuses
defense counsel of misrepresenting his decision on this issue. Edwards did not even raise this point in his motion for new trial. This
is not surprising considering that the day after the first visit, the
court explained the trip to the scene in detail and counsel additionally stipulated in Edwards’s presence to Gaca’s testimony. Edwards uttered not a word. Absent more, then, we will not consider
this reckless accusation further. Kevorkian, 248 Mich App at 389.

137a
Kurylczyk, 443 Mich 289, 296; 505 NW2d 528 (1993)
(opinion by GRIFFIN, J.); People v Kent, 157 Mich App
780, 793; 404 NW2d 668 (1987), citing People v Mallory,
421 Mich 229, 244-248; 365 NW2d 673 (1984). However,
Edwards has not cited—nor have we found—Michigan
authority addressing the issue of a trial court’s viewing
of a crime scene in the absence of defendant or his
counsel. Several federal courts have held, however,
that the same principles apply. See, e.g., United States
v Walls, 443 F2d 1220, 1222-1223 (CA 6, 1971) (“The
principles applicable to a view by a judge sitting without a jury are not substantially different [than those
applicable to a jury]”); Payne v United States, 697 A2d
1229, 1235 (DC, 1997), citing Lillie v United States, 953
F2d 1188, 1191 (CA 10, 1992) (finding the court’s viewing of the crime scene, although erroneous, was not
prejudicial). Moreover, while the Confrontation Clause
entitles a criminal defendant the right to a face-to-face
meeting with witnesses appearing before the trier of
fact, the right is not absolute, People v Staffney, 187
Mich App 660, 663; 468 NW2d 238 (1990), and is not as
broad in scope as the right to be present at trial, Mallory, 421 Mich at 247.
Assuming the right to attend the viewing of the
scene extends to bench trials, we find no error requiring reversal. In the first place, Edwards’s counsel was
present for the initial viewing by the court and Gaca.
Moreover, counsel agreed to the two questions asked of
Gaca and stipulated to her testimony. Those pertained
to her location and whether she moved during the
shooting. Her testimony that she only moved when the
gunman ran towards the car, however, only damaged
her credibility and helped Edwards. On this point, the
trial court expressly found that Gaca stood 50 feet from
the incident, rather than the 20 feet she claimed at trial.

138a
In view of this, Edwards’s failure to raise this issue below smacks of harboring error as an appellate parachute. People v Riley, 465 Mich 442, 448; 636 NW2d 514
(2001). We will not tolerate such gamesmanship. But
even if there were error, it certainly was not outcome
determinative in light of the overwhelming evidence
against Edwards. This included the evidence of Edwards’s intent to rob the decedent, the forensic evidence linking Edwards’s gun to the shooting, and the
tether and surveillance video placing Edwards at the
scene.
Likewise, even if the court’s second viewing were
improper, it did not violate Edwards’s substantial
rights. The court indicated that its only purpose was to
confirm the lighting of the parking lot. That fact was of
little consequence in light of the other incriminating evidence, especially the surveillance video, tether, and
forensic evidence. Again, Edwards was not prejudiced,
and, not surprisingly, he makes no claim that he was
actually innocent or that this fundamentally affected
the proceedings in an adverse way.
Before moving on, we note that Edwards relies on
United States v Cronic, 466 US 648; 104 S Ct 2039; 80 L
Ed 2d 657 (1984), among other cases, to suggest that
any error was structural and requires automatic reversal. Edwards ignores, however, that “every federal circuit court of appeals has stated, post-Cronic, that an
absence of counsel at a critical stage may, under some
circumstances, be reviewed for harmless error.” People v Murphy, 481 Mich 919, 923; 750 NW2d 582 (2008)
(MARKMAN, J., concurring), citing, among others, Satterwhite v Texas, 486 US 249; 108 S Ct 1792; 100 L Ed
2d 284 (1988), Ellis v United States, 313 F3d 636, 643
(CA 1, 2002) (absence of counsel at critical stage would
require presumption of prejudice only if “pervasive in

139a
nature, permeating the entire proceeding”), and United
States v Lampton, 158 F3d 251, 255 (CA 5, 1998) (applying harmless-error review when counsel was absent
during adverse testimony). Our facts fall squarely in
line with this authority and we see no compelling reason to deviate today. Reversal is not warranted.12
F. INEFFECTIVE ASSISTANCE OF COUNSEL
We next address Edwards’s host of ineffective assistance of counsel arguments. Because we previously
denied Edwards’s motions to remand for a Ginther
hearing,13 our factual review is limited to mistakes apparent on the record. People v Snider, 239 Mich App
393, 423; 608 NW2d 502 (2000). We review the ultimate
question of constitutionality de novo, however. People
v Jordan, 275 Mich App 659, 667; 739 NW2d 706 (2007).
To prevail, Edwards must show that his counsel’s performance was objectively unreasonable and that counsel’s deficiency was outcome determinative. People v
Pickens, 446 Mich 298, 312; 521 NW2d 797 (1994).
Edwards initially argues in his principal brief that
his trial counsel was ineffective for failing to interview
Deonte before trial. See People v Grant, 470 Mich 477,
493; 684 NW2d 686 (2004) (“[t]he failure to make an ad12

Equally meritless is Edwards’s pro se assertion that the
case against him is “void” because the complaint was not recorded
in the register of actions. The complaint appears in the lower
court file and contains no deficiency. It is dated and signed by the
magistrate, assistant prosecutor, and the complaining witness.
Edwards does not claim any prejudice resulted, and, in any event,
is not actually innocent as we have already explained. Any error
was harmless. MCL 769.26; People v Houthoofd, 487 Mich 568, 591
n 38; 790 NW2d 315 (2010).
13

People v Ginther, 390 Mich 436; 212 NW2d 922 (1973).

140a
equate investigation is ineffective assistance of counsel
if it undermines confidence in the trial’s outcome.”).
Edwards bases this assertion on Deonte’s affidavit—
offered for the first time on appeal—disavowing his
preliminary examination testimony incriminating Edwards. According to Edwards, had counsel interviewed
Deonte, he could have exposed Deonte’s lies to the
court at trial. There are at least two problems with this
argument.
First, Deonte refused to testify at trial. Thus, Edwards’s assumption, i.e., that the trial court would have
“heard from Smith that he was lying,” has no basis.
Tellingly, Edwards offers no argument about how his
counsel’s investigation would have altered Deonte’s decision not to testify.14 Second, even if Deonte would
have recanted at trial, this would not erase his prior
sworn testimony, which the prosecution would no doubt
have presented as a prior inconsistent statement admissible for its substantive value.
See MRE
801(d)(1)(A) (inconsistent prior statements made under
oath and subject to the penalty of perjury are not hearsay); People v Malone, 445 Mich 369, 376-378; 518
NW2d 418 (1994) (statements that are not hearsay under MRE 801(d)(1) may be used as substantive evidence). It bears further emphasis that recantation testimony, like what Edwards proposes, is inherently
“suspect and untrustworthy.” People v Canter, 197
Mich App 550, 559; 496 NW2d 336 (1992). Indeed
“[t]here is no form of proof so unreliable as recanting
14

Although defense counsel cross examined Deonte at the
preliminary examination, this does not necessarily tip the balance
against Edwards. See, e.g., Bryant v Scott, 28 F3d 1411, 1419 (CA
5, 1994) (“assuming that Moore’s cross examination was effective,
that is not to say it could not have been improved by prior investigation.”).

141a
testimony.” Id. at 559-560 (citation omitted). In light of
this, even if the failure to investigate Denote were unreasonable, our confidence in the trial’s outcome remains firm.
Edwards presents the remainder of his ineffective
assistance arguments in his Standard 4 brief. This
laundry list accuses defense counsel of failing to object
to: (1) the felony information, (2) the closure of the
courtroom during the preliminary examination, (3) the
trial court’s purported failure to comply with MCR
6.402(B), and (4) the trial court’s second visit to the
crime scene. As for the first three, we have already determined that each is devoid of merit. Any objection
would therefore have been futile. People v Ericksen,
288 Mich App 192, 201; 793 NW2d 120 (2010) (defense
counsel is not required to make objections destined to
lose). And as for the fourth claim, even if there were
error, it was not outcome determinative for the reasons
already stated. Edwards therefore cannot establish
ineffective assistance on any of these grounds.
All of his convictions stand.
III. DOCKET NO. 318025 – ROYSTER
Like his codefendant, Royster also filed a principal
and Standard 4 brief. Our review of both yields nothing
to aid his cause.
A. SUFFICIENCY OF THE EVIDENCE
First, Royster asserts that his mere presence at
the Eastland Mall was insufficient to convict him of felony murder under an aiding and abetting theory. We
review a challenge to the sufficiency of the evidence in
a bench trial de novo. People v Lanzo Const Co, 272
Mich App 470, 473-474; 726 NW2d 746 (2006). “When

142a
reviewing a challenge of the sufficiency of the evidence
in a bench trial, the reviewing court must view the evidence in the light most favorable to the prosecution and
determine whether a rational trier of fact could find
that the essential elements of the crime were proven
beyond a reasonable doubt.” People v Kanaan, 278
Mich App 594, 618; 751 NW2d 57 (2008). A court’s factual findings in a bench trial will not be set aside absent
clear error. MCR 2.613(C).
Felony murder consists of three elements: (1) the
killing of a human being, (2) with malice, and (3) while
committing or attempting to commit a robbery, among
other offenses listed in MCL 750.316(1)(b). Smith, 478
Mich at 318-319. A defendant is guilty of aiding and
abetting a felony murder when he has the requisite
malice, which need not be identical to the principal’s.
People v Robinson, 475 Mich 1, 14; 715 NW2d 44 (2006).
Mere presence at the scene of the crime, even with
knowledge of the principal’s plan, is not enough to
prove malice. People v Norris, 236 Mich App 411, 419420; 600 NW2d 658 (1999). Thus, Royster would be
guilty of felony murder under an aiding and abetting
theory if he:
(1) performed acts or gave encouragement that
assisted the commission of the killing of a human being, (2) with the intent to kill, to do
great bodily harm, or to create a high risk of
death or great bodily harm with knowledge
that death or great bodily harm was the probable result, (3) while committing, attempting to
commit, or assisting in the commission of the
predicate felony. [People v Riley (After Remand), 468 Mich 135, 140; 659 NW2d 611
(2003).]

143a
Gaca’s testimony easily satisfies the first two elements. She testified that Royster stood outside the
driver’s door of the vehicle from which Edwards
emerged, holding a gun. As Edwards approached the
decedent in a crouched position, Gaca heard Royster
encourage Edwards to “Pop him, pop that motherf***** good,” before Edwards accosted the decedent
and fired four shots, killing him. Royster then drove
the getaway car. This testimony shows both Royster’s
encouragement of Edwards and his malicious intent,
especially since only minimal circumstantial evidence is
required to prove the latter. Kanaan, 278 Mich App at
622; see also Carines, 460 Mich at 761 (actions after the
incident, including flight, may be considered when determining intent). And, while Royster urges us to discount Gaca’s testimony as unreliable, that is a determination left solely to the trial court, which we will not—
and cannot—revisit here. Kanaan, 278 Mich App at
619. Royster was not the mere innocent bystander he
portrays himself to have been.
As for the third element, Royster ignores that
while there was no evidence that neither he nor Edwards knew the decedent previously, evidence showed
they had selected him as their target, i.e, an individual
wearing an expensive watch and glasses in the driver’s
seat of an expensive car. This circumstantial evidence,
in conjunction with Edwards’s covert approach to the
decedent and Royster’s encouragement, must be construed in the light most favorable to the prosecution,
and as such, is sufficient to prove their attempt to commit the underlying felony of robbery.
But even if this weren’t enough, Deonte’s incriminating testimony—which the trial court did not even
consider in determining Royster’s guilt—shows robbery was defendants’ aim. Indeed, the primary pur-

144a
pose of Edwards’s statement to Deonte was not to establish prior events potentially relevant to a later prosecution; it was to brag. There is no question that Edwards’s hubris ran contrary to his penal interest. Accordingly, the statement was nontestimonial and admissible against Royster as a codefendant. See People
v Taylor, 482 Mich 368, 378-379; 759 NW2d 361 (2008)
(statements whose primary purpose are not to establish
past events potentially relevant to a later prosecution
fall outside the Confrontation Clause, are governed by
MRE 804(b)(3) (certain statements subjecting a party
to criminal liability are not excluded by the hearsay
rule), and are admissible against a codefendant).
Royster’s conviction is well supported.
B. INEFFECTIVE ASSISTANCE OF COUNSEL
Royster’s next argument is that counsel was ineffective for failing to subpoena exculpatory witnesses.
We have already set forth the standard for ineffective
assistance and will not revisit it here, except to note
that because Royster’s motion to remand in this Court
was also denied, we must again confine our review to
mistakes apparent on the record. Snider, 239 Mich App
at 423.
Royster identifies only one instance in the record to
substantiate his claim, specifically at sentencing when
he noted a breakdown in communication with counsel
that allegedly resulted in his counsel failing to do “a lot
of things,” including call witnesses. However, Royster
specified none of the “things” counsel failed to do and
identified no witnesses. Further, while Royster identifies only one witness on appeal, he offers no explanation, let alone offer of proof, as to how that witness
would exculpate him. People v Hoag, 460 Mich 1, 6; 594
NW2d 57 (1999) (a defendant must establish a factual

145a
predicate to support a claim of ineffective assistance).
In fact, the only information Royster provides about
this putative witness is that he is in federal prison
somewhere. It is certainly not our responsibility to
flesh out this argument, People v Kevorkian, 248 Mich
App 373, 389; 639 NW2d 291 (2001), especially where
Royster makes no effort to explain how not calling a
federal inmate affected the trial’s outcome, People v
Dunigan, 299 Mich App 579, 589-590; 831 NW2d 243
(2013) (the decision to call witnesses is a matter of trial
strategy constituting ineffective assistance only if it
deprives a defendant of a substantial defense affecting
the proceeding’s outcome).
C. SECOND VIEW OF THE CRIME SCENE
Like Edwards, Royster also challenges the trial
court’s second viewing of the crime scene, with the
added wrinkle of an alleged Confrontation Clause violation. This latter claim alleges in essence that the trial
court functioned as a witness during its second viewing
of the crime scene and should have been subject to
cross examination. Royster lodged no objection on this
novel theory (or on any other ground) below, and so we
are looking for outcome determinative error that adversely affected the proceedings or resulted in the conviction of an innocent defendant. Carines, 460 Mich at
774. We see none.
As we said before, a criminal defendant has the
right to be present at every stage of a proceeding and
to confront the witnesses against him. Kurylczyk, 445
Mich at 296; Staffney, 187 Mich App at 663. At least on
the former ground, the prosecution concedes error, and
indeed, we agree that the trial court’s second viewing
of the crime scene was not only erroneous, but imprudent. But even assuming error on both grounds,

146a
Royster can’t get around the mountain of incriminating
evidence against him. On this score, besides our prior
analysis, we would highlight again Royster’s vulgar encouragement to Edwards, which eradicates any pretense of actual innocence especially considering that the
trial court’s second visit was to view the lighting in the
parking lot. That is not enough to reverse.
D. ROYSTER’S STANDARD 4 BRIEF
Royster’s Standard 4 brief is a near carbon-copy
subset of the issues his codefendant presents on appeal.
These challenges include: (1) the violation of his right
to a public trial; (2) the court’s noncompliance with
MCR 6.402(B); (3) the felony information’s lack of proper notice; and (4) the two crime scene visits. As for the
first three, Royster’s failure to object yet again leaves
us looking for plain error affecting substantial rights.
For all the reasons explained previously, we can’t find
any. To the second point, we add that the court secured
Royster’s jury trial waiver in a colloquy substantively
identical to the one with Edwards, and that we otherwise decline to consider Royster’s affidavit for the
same reasons we reject Edwards’s. Accordingly, there
is no ground for reversal where the court properly
closed the courtroom during the preliminary examination, secured a voluntary waiver, and Royster’s “complete[]” ignorance of the charges was dispelled by the
felony information and preliminary examination. In
addition, Royster’s assertion that he would have testified but for this alleged error is at best dubious given
that the mens rea was provided in the premeditated
murder charge.
Regarding the crime scene visits, we conclude that
Royster waived any challenge to the first visit and to
any testimony Gaca offered where his counsel attended

147a
the visit without objection and stipulated to the recitation of Gaca’s testimony into the record. Riley, 465
Mich at 448, citing, among others, Carter, 462 Mich at
215-216. But even if there were error, Gaca’s comments at the scene only harmed her credibility. Moreover, as we have repeatedly concluded, the evidence of
Royster’s guilt absent these visits was clear and he is
not actually innocent.
Finally, Royster tacks on an ineffective assistance
of counsel claim, arguing that his lawyer should have
objected to: (1) the transcription of Deonte’s preliminary examination testimony at trial; (2) the court’s noncompliance with MCR 6.402(B); and (3) the “defective”
felony information. Because none of these amounts to
error, no objection was necessary. Ericksen, 288 Mich
App at 201. Moreover, the trial court expressly declined to consider Deonte’s testimony against Royster.
What counsel was supposed to object to, then, is beyond us.
Affirmed.
/s/ Jane E. Markey
/s/ Christopher M. Murray
/s/ Stephen L. Borrello

149a
APPENDIX G
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
19-1302
19-1304
DEMETRIUS WILLIAM EDWARDS,
Petitioner-Appellant,
v.
SHERRY BURT, WARDEN,
Respondent-Appellee.,
BRYANT LAMONT ROYSTER,
Petitioner-Appellant,
v.
KEVIN LINDSEY, WARDEN,
Respondent-Appellee.
Filed September 30, 2020
ORDER
BEFORE:
Judges.

GUY, SUTTON, and GRIFFIN, Circuit

The court received two petitions for rehearing en
banc. The original panel has reviewed the petitions for
rehearing and concludes that the issues raised in the
petitions were fully considered upon the original submission and decision of the cases. The petitions then

150a
were circulated to the full court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petitions are denied.
ENTERED BY ORDER OF THE
COURT

signature
Deborah S. Hunt, Clerk

